<html>
<title> - STATE AND LOCAL RESPONSES TO DOMESTIC TERRORISM: THE ATTACK ON THE U.S. CAPITOL AND BEYOND</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
             STATE AND LOCAL RESPONSES TO DOMESTIC TERRORISM: 
             
                        THE ATTACK ON THE U.S. 

                           CAPITOL AND BEYOND

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2021

                               __________

                            Serial No. 117-6

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE 
44-523 PDF                WASHINGTON : 2021                                
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                     Natalie Nixon, Committee Clerk
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                  Elissa Slotkin, Michigan, Chairwoman
Sheila Jackson Lee, Texas            August Pfluger, Texas, Ranking 
James R. Langevin, Rhode Island          Member
Eric Swalwell, California            Michael Guest, Mississippi
Josh Gottheimer, New Jersey          Jefferson Van Drew, New Jersey
Tom Malinowski, New Jersey           Jake LaTurner, Kansas
Bennie G. Thompson, Mississippi (ex  Peter Meijer, Michigan
    officio)                         John Katko, New York (ex officio)
               Brittany Carr, Subcommittee Staff Director
          Adrienne Spero, Minority Subcommittee Staff Director
                      Joy Zieh, Subcommittee Clerk
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Elissa Slotkin, a Representative in Congress From 
  the State of Michigan, and Chairwoman, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable August Pfluger, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8

                               Witnesses

Ms. Dana Nessel, Attorney General, State of Michigan:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Aaron D. Ford, Attorney General, State of Nevada:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. John T. Chisholm, District Attorney, Milwaukee County, 
  Wisconsin:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23

                             For the Record


The Honorable Elissa Slotkin, a Representative in Congress From 
  the State of Michigan, and Chairwoman, Subcommittee on 
  Intelligence and Counterterrorism:
  Letter From Karl A. Racine, Attorney General, Office of the 
    Attorney General, Government of the District of Columbia.....    43
  Statement of Ellen F. Rosenblum, Oregon Attorney General.......    45
  Letter From Cyrus R. Vance, Jr., District Attorney, County of 
    New York.....................................................    46
  Letter From National District Attorneys Association............    47


STATE AND LOCAL RESPONSES TO DOMESTIC TERRORISM: THE ATTACK ON THE U.S. 

                           CAPITOL AND BEYOND

                              ----------                              


                       Wednesday, March 24, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:32 a.m., via 
Webex, Hon. Elissa Slotkin [Chairwoman of the committee] 
presiding.
    Present: Representatives Slotkin, Thompson, Jackson Lee, 
Langevin, Gottheimer, Malinowski, Green, Van Drew, Meijer, and 
Pfluger.
    Chairwoman Slotkin. The Subcommittee on Intelligence and 
Counterterrorism will come to order. Without objection, the 
Chair is authorized to declare the committee in recess at any 
point. Good morning. It is my honor to be opening up the first 
public hearing as the Chair of the Subcommittee on Intelligence 
and Counterterrorism. Our subcommittee is meeting today to 
examine State and local responses to the growing threat of 
domestic terrorism and violent extremism.
    Before we begin, I would like to just take a moment to 
acknowledge the horrific violence we have seen in Atlanta and 
in Boulder over the past week. I know we are all grieving for 
the 18 Americans going about their daily life at a spa, at the 
supermarket, who have been senselessly torn from their 
families.
    Now, this subcommittee is charged with combatting domestic 
terrorism and violent extremism, among other things, and we are 
united by the conviction that we simply cannot allow violence 
to be normalized as part of our politics. But we have to 
acknowledge that we have allowed these monstrous acts, past 
acts of mass violence to become normalized as part of our 
society.
    While the investigations are on-going, we cannot ignore the 
anguish of our Asian-American communities that they are feeling 
right now. Nor can we deny the intelligence community's 
warning, just last week, that lone-wolf actors, driven by hate 
for swaths of our fellow citizens, pose a growing threat of 
``mass casualty attacks,'' like the ones we have just seen 
against innocent Americans here at home. There is nothing 
political about protecting Americans from violence in our 
communities, and I am determined to work together with each and 
every Member of the subcommittee, regardless of party, to do 
just that.
    Since this is our first hearing, I want to just take a 
second to make all the Members of the subcommittee aware of a 
few procedural items. First, in accordance with the procedures 
laid out by the Chairman and Ranking Member of the full 
committee, Members will be recognized on a strict seniority 
basis regardless of time of arrival. Second, I am proud of the 
tradition of bipartisan cooperation this subcommittee has 
enjoyed in the past. I want to remind and encourage Members to 
continue operating in a manner that is respectful of other 
Members, our witnesses, and in accordance with the House rules.
    To be very specific, Sections 368, 369, and 370 of 
Jefferson's Manual prohibit Members from imputing the motives 
of another Member, a Senator, or the current President. I would 
ask that this subcommittee proceed with its work on the issues 
before us this Congress and that all Members do so in a 
respectful manner. With that, I recognize myself for a brief 
opening statement.
    For the better part of the last 2 decades, since the 
fateful morning of September 11, 2001, our country's framing of 
our National security interests have revolved largely around 
threats posed by terrorist organizations halfway around the 
world in places like Afghanistan, Iraq, Syria, North Africa. 
But for those of us with a background in National security, 
like myself and many others on this panel, we have seen a 
troubling trend in recent years.
    Here at home, extremist rhetoric on-line, rising political 
tensions and the proliferation of disinformation have brought 
us to a boiling point. We have seen flashes of it in the last 
few years. Moments that have given us a window into the threat 
posed by violent domestic groups in Charlottesville in 2017, in 
my own district, Lansing in 2020, and tragically, on January 6 
in the Nation's Capitol.
    The attack on the Capitol on the 6th and the warnings we 
received from law enforcement and intelligence leaders in the 
months leading up to and weeks since, have made clear that 
while external threats remain, the single greatest threat to 
our country right now is the threat of domestic terrorism and 
the tensions and polarization between us.
    For some people, the division that is rife in our country 
right now will lead them to climb that ladder of escalation, 
use violence or the threat of violence for political goals, and 
become domestic terrorists. Taking on this threat is our top 
priority. This is why our first hearing as a full committee 
less than a month after the attack on January 6 was focused on 
domestic terrorism and why today's hearing, the first 
subcommittee hearing for the Homeland Security Committee in 
this Congress, will continue that critical discussion.
    As a former CIA analyst, I want to take a moment to make 
sure we are all on the same page in terms of the scope and 
scale of these threats and the words we use to describe them. 
First, the threat we face. A week ago, today, the Secretary of 
Homeland Security Ali Mayorkas testified in front of our full 
committee that ``domestic violent extremism'' represents ``the 
greatest threat in the homeland right now.'' That threat isn't 
going away. A few weeks ago, FBI Director Wray testified that 
domestic terrorism investigations have grown from around 1,000 
in September, to about 2,000 after the attack on the 6th. 
Director Wray testified in front of our committee last Congress 
that we now have more open investigations around domestic 
extremism than we do of cases of individuals connected to 
foreign terrorist organizations.
    Last week, the director of national intelligence in 
collaboration with Justice and Homeland Security, released an 
assessment warning that domestic violent extremists pose an 
elevated risk to the homeland this year. This assessment 
cautions that extremists will continue to be radicalized and 
will mobilize around narratives of election fraud, pandemic 
restrictions, conspiracy theories, and the attack on the 6th. 
The threat assessment also laid out important terminology that 
our intelligence and law enforcement officers use to describe 
these threats. It is important that we get on the same page.
    The intelligence community's foremost concern is ``racially 
or ethnically motivated violent extremists (RMVEs)'', as well 
as ``militia violent extremists (MVEs).'' Our intelligence 
agencies have assessed that these groups pose, at present, the 
most lethal domestic threat. Racially motivated extremists are 
the most likely to conduct mass-casualty attacks against 
civilians. Militias are likely to target law enforcement and 
Government personnel and facilities. The agencies' assessment 
notes that the threat is compounded by tech platforms that make 
radicalization, recruitment, and mobilization easier.
    As we sit here today, we are facing a new reality. The 
post-9/11 era of security where the threats come from abroad is 
over. In the 20 years of the post-9/11 era, they came to an end 
on January 6. The new reality that we have to come to terms 
with is that our extremists here at home seeking to exploit 
internal division that pose the greatest threat. This is why we 
are focusing on these challenges today in this hearing.
    The issue is not theoretical for me and others who are on 
the screen. In my own district last year, Federal and State 
authorities managed to disrupt a plot by at least 14 men to 
kidnap and kill our Governor, Gretchen Whitmer. The group spied 
on the Governor's vacation home, conducted firearms and combat 
training, and practiced building explosives. They planned to 
detonate a bomb under a highway bridge to distract local 
authorities as they kidnapped our Governor to relocate her to 
Wisconsin for a ``trial.'' These plotters weren't affiliated 
with al-Qaeda or ISIS. They didn't hail from war-torn regions 
halfway around the world. They were Americans. They were 
radicalized right here at home. These men were affiliated with 
a group who called themselves the Wolverine Watchmen, a violent 
extremist group threatening to start a civil war here in the 
United States.
    Even just this week, another 22-year-old man from my 
district who was affiliated with this group, was charged with 2 
felony counts related to modifying a semiautomatic weapon. This 
is exactly what the FBI and DHS have been sounding the alarm 
over. In this moment, groups like this are the ones that pose 
the greatest threat to our safety and our way of life.
    I am very, very grateful for the work of law enforcement at 
both the State and Federal level who disrupted this terrible 
plot. Michigan Attorney General Dana Nessel, who is here with 
us today, has led the majority of the charges against these 
defendants. She has charged 8 of the extremists with 
``providing material support for terrorist acts.'' Two of the 8 
were additionally charged by her office with the ``threat of 
terrorism.'' AG Nessel's work highlights the very reason we 
have called this hearing. It lays out--today we will hear about 
the patchwork of State and local and Federal laws that we have 
to prosecute violent extremists.
    Many of you know, although domestic terrorism is defined in 
Federal law, there are no specific Federal domestic terrorism 
charges. While some of these investigations may result in--some 
investigations do result in serious charges, such as hate 
crimes and gun charges. In the case of January 6, we have had 
perpetrators charged with conspiracy and sedition. Many of 
these domestic terrorism-related investigations will not 
progress as terrorism-related charges.
    This is a major reason why we are here today, as I said, to 
understand the legal authorities we do and do not have to 
prosecute domestic terrorists. In particular, to understand 
whether Federal legislation is or is not needed to tackle these 
threats. In the mean time, States have tried to devise their 
own systems for countering domestic terrorism and hate-fueled 
violence, but those approaches differ. In States like Michigan 
and Texas, for example, those differences can be significant.
    So, today's hearing will allow us to hear from law 
enforcement leaders in 3 States about how they are working to 
combat these threats and the legal tools they have and don't 
have at their disposal. We will also in the subcommittee 
examine how States coordinate with the Federal Government to 
combat the threat and how the Federal Government can better 
complement State and local communities' efforts. Our State and 
local law enforcement, our attorneys general, are on the front 
lines of this fight and it is great that we have them here 
today to speak directly to the public on this.
    So, I will just say--so, one of the things that I am 
personally looking at is some legislation to ensure that DHS 
has the tools that they need from an intelligence analysis 
perspective to better understand these threats. One of the 
things we know is we just don't do is kind-of data collection. 
We just don't understand the magnitude of the threat. I hope 
this is an area where myself and the other side of the aisle 
can work to improve the Department of Homeland Security's 
capabilities.
    In addition to our witnesses, I just want to take a brief 
moment to thank the attorneys general from District of Columbia 
and Oregon, and the National District Attorneys Association for 
their work on this topic and note that some statements they 
have submitted for the record.
    I am eager to hear from our witnesses today about where we 
can improve and where we can, you know, follow through with 
that guarantee of safety to every American. I know that we want 
to set a strong tone, a bipartisan tone, and hear it in this 
subcommittee.
    [The statement of Chairwoman Slotkin follows:]
                 Statement of Chairwoman Elissa Slotkin
                             March 24, 2021
    It's an honor to be opening my first public hearing as Chair of the 
Subcommittee on Intelligence and Counterterrorism. Our subcommittee is 
meeting today to examine State and local responses to the growing 
threat of domestic terrorism and violent extremism.
    Before we begin, I'd like to take a moment to acknowledge the 
horrific violence we've seen in Atlanta and Boulder over the past week. 
I know we're all grieving for the 18 Americans going about their daily 
lives, at a spa or the supermarket, who have been senselessly torn from 
their families. Now, this subcommittee is charged with combatting 
domestic terrorism and violent extremism--united by the conviction that 
we simply cannot allow violence to be normalized as a part of our 
politics. But we have to acknowledge that we've allowed these monstrous 
acts of mass violence to become normalized as a part of our society.
    While the investigations of these heinous attacks are on-going, we 
cannot ignore the anguish that our Asian-American communities are 
feeling right now. Nor can we deny the intelligence community's 
warning, just last week, that lone-wolf actors--driven by hate for 
swaths of our fellow citizens--pose a growing threat of ``mass casualty 
attacks,'' like the ones we've just seen, against innocent Americans 
here at home. There is nothing political about protecting Americans 
from violence in our communities--and I am determined to work together 
with each and every Member of this subcommittee, regardless of party, 
to do just that.
    For the better part of the last 2 decades, since that fateful 
morning on September 11, 2001, our country's framing of our National 
security interests have revolved largely around the threats posed by 
terrorist organizations halfway around the world--in places like 
Afghanistan, Iraq, Syria, and Northern Africa. But for those of us with 
a background in National security, like myself and others on this 
panel, we've seen a troubling trend in recent years.
    Here at home, extremist rhetoric on-line, rising political 
tensions, and the proliferation of disinformation have brought us to a 
boiling point. We've seen flashes of it over the last few years--
moments that have given us a window into the threat posed by violent 
domestic groups--in Charlottesville (2017); in Lansing (2020); and 
tragically, on January 6, in the Nation's capital.
    The attack on the U.S. Capitol on January 6, and the warnings we 
have received from law enforcement and intelligence leaders in the 
months leading up to and in the weeks since, have made clear that while 
external threats remain, the single greatest threat to our country 
right now is domestic terrorism.
    Taking on this threat is our top priority: That is why our first 
hearing as a full committee (less than a month after the insurrection) 
focused on domestic terrorism, and why today's hearing--the first 
subcommittee hearing for the Homeland Security Committee this 
Congress--will continue that critical discussion.
    I want to take a moment to make sure we're all on the same page, in 
terms of the scope and scale of these threats, and the words we use to 
describe them. First, the threat we face. A week ago today, Secretary 
of Homeland Security Ali Mayorkas testified to me and our full 
committee that ``domestic violent extremism'' represents the ``greatest 
threat in the homeland right now.'' This threat is not going away: A 
few weeks ago, FBI Director Wray testified that domestic terrorism 
investigations have grown from around 1,000 in September, to about 
1,400 at the end of 2020, to around 2,000 after the attack on the U.S. 
Capitol this past January.
    Last week, the Office of the Director of National Intelligence 
(ODNI) in collaboration with the Departments of Justice and Homeland 
Security released an assessment warning that domestic violent 
extremists (DVEs) pose an elevated risk to the homeland this year. The 
assessment cautions that extremists will continue to be radicalized and 
will mobilize around narratives of election fraud, pandemic 
restrictions, conspiracy theories, and the January 6 attack on the 
Capitol. That assessment also lays out the terminology that our 
intelligence and law enforcement communities use to describe these 
threats.
    The intelligence community's foremost concern is racially- or 
ethnically-motivated violent extremists (RMVEs) and militia violent 
extremists (MVEs), as our intelligence agencies have assessed that 
these groups present the most lethal domestic threat. Racially-
motivated extremists are the most likely to conduct mass-casualty 
attacks against civilians. And militias are likely to target law 
enforcement and Government personnel and facilities. The agencies' 
assessment notes that the threat is compounded by tech platforms that 
make the radicalization, recruitment, and mobilization of extremists 
easier.
    As we sit here today, we are facing a new reality: The post-9/11 
era of security has come to an end. The new reality we have to come to 
terms with is that it's extremists here at home seeking to exploit 
internal divisions within our own country that pose the greatest 
threat. While the insurrection and attack against our Nation's Capitol 
on January 6 has brought the threat of domestic terrorism and domestic 
violent extremism to the forefront, these threats are ones we have been 
dealing with for a long time in our States and local communities--which 
is why we are focusing today on the challenges they face. This issue 
isn't theoretical for me--it's deeply personal.
    In my own district last year, Federal and State authorities managed 
to disrupt a plot by at least 14 men to kidnap our Governor, Gretchen 
Whitmer. The group spied on Gov. Whitmer's vacation home, conducted 
firearms and combat training, and practiced building explosives. They 
planned to detonate a bomb under a highway bridge to distract local 
authorities as they kidnapped the Governor, and relocate her to 
Wisconsin to conduct a ``trial.'' These plotters weren't affiliated 
with al-Qaeda or ISIS; they didn't hail from a war-torn region halfway 
around the world--they were Americans. They were White. And they were 
radicalized right here at home. These men were affiliated with a group 
who call themselves the Wolverine Watchmen, a violent extremist group 
threatening the start of a civil war.
    Even just on Monday of this week, a 22-year-old man from my 
district affiliated with this group was charged with 2 felony counts 
related to modifying a semiautomatic weapon. This is exactly what the 
FBI and DHS have been sounding the alarm over. In this moment, groups 
like this are what pose the greatest threat to our safety and way of 
life. I am grateful for the work of law enforcement at both the State 
and Federal level that disrupted this horrifying plot. Three of 6 of 
those indicted on Federal charges were my constituents, and one of the 
key raids occurred just 10 minutes from my home.
    Michigan Attorney General Nessel, a dedicated public servant who is 
here before us today, has led the majority of the charges against these 
defendants. AG Nessel has charged 8 of the extremists with ``providing 
material support for terrorist acts,'' and 2 of the 8 were additionally 
charged by her office with the ``threat of terrorism.'' Now, AG 
Nessel's work lays out some of the distinctions between the authorities 
that State/local and Federal law enforcement can bring to bear. The 
specific terrorism charges she was able to bring were only possible 
because Michigan has a State-level domestic terrorism statute, and the 
Michigan Constitution forbids private military units from operating 
outside State authority.
    As we all know here, although domestic terrorism is defined in 
Federal law, there is no specific Federal domestic terrorism charge. 
And while some of these investigations may result in serious charges, 
such as hate crimes and gun charges--and in the case of January 6, 
we've seen perpetrators be charged with conspiracy and now possibly 
sedition--many of these domestic terrorism-related investigations will 
not progress as terrorism-related charges.
    The Federal Government has vast resources but they are not 
unlimited. States have tried to devise their own systems for countering 
domestic terrorism and hate-fueled violence. But those approaches 
differ, and in States like Michigan and Texas, for example, those 
differences can be significant. Today's hearing will allow us to hear 
from law enforcement leaders in 3 States about how they are working to 
counter the threat and prevent future attacks from occurring, and the 
legal tools they have at their disposal to prosecute individuals 
engaged in acts of domestic terrorism.
    Today, the subcommittee will also examine how States coordinate 
with the Federal Government to combat the threat and how the Federal 
Government can better complement State and local communities' efforts. 
Our State and local law enforcement--our attorneys general--are on the 
front lines of the fight against domestic terrorism and violent 
extremism as it threatens our communities.
    As Federal lawmakers, we have a responsibility to make sure they 
have the resources and support they need to tackle this threat--whether 
in the form of intelligence sharing or through material support.
    On January 6, we saw first-hand the consequences of failing to meet 
this challenge. As many of you know, I served 3 tours in Iraq alongside 
our military during my time as a CIA analyst. Never in my life did I 
think that the training I went through in war zones would be necessary 
here at home, let alone in the U.S. Capitol where I come to work every 
day. But at the beginning of this year, I felt like I had been 
transported back to that place. No American should feel threatened in 
that way on U.S. soil ever again, and I know all of us here are 
committed to making sure the events that took place on that day never 
repeat themselves.
    I look forward to introducing legislation soon to ensure that DHS 
has the tools it needs from an intelligence analysis perspective to 
better understand the threats. And I hope that this is an area where my 
Republican colleagues can work with me to improve the Department's 
capabilities. I also want to thank the attorneys general from the 
District of Columbia and Oregon, the Manhattan district attorney, and 
the National District Attorneys Association for their work on this 
topic and the statements they submitted for the record.
    I am eager to hear from our witnesses today about where 
improvements can be made to guarantee the safety of every American, and 
I'm eager to work with all of you on this subcommittee, on a bipartisan 
basis, to achieve that important goal.

    Chairwoman Slotkin. With that, I thank the witnesses for 
being here, and I recognize the Ranking Member, the gentleman 
from Texas, Mr. Pfluger, for an opening statement.
    Mr. Pfluger. Madam Chairwoman, thank you for holding this 
hearing. Thank you for your commitment to work in a bipartisan 
way on a topic that is very important to all Americans. I 
appreciate that commitment to work across the aisle and to make 
sure that we assess this space in a threat-based, fact-based 
way.
    As we saw in our first official briefing as a subcommittee 
a couple of weeks ago, sometimes getting the straight answers 
from agencies can be tough. It is incumbent upon all of us to 
ask those hard questions and to get to the root of any sort of 
violence that is affecting our country. Violent extremism in 
any form is unacceptable.
    In addition to the recent attacks on the Capitol, we have 
seen over the summer, attacks on Federal buildings throughout 
the country. Whether it is far left groups or far right groups, 
including a plot to kidnap the Governor of Michigan, it is 
completely unacceptable in this country to live or have a 
threat of fear, which is what terrorism, foreign or domestic, 
would have us do. Many of these violent threats are being 
driven by rampant disinformation and misinformation on-line. 
They have left Federal, State, and local authorities with new 
unprecedented challenges on dealing with this.
    All of this has led to worthwhile discussions and debates 
around the merits of whether new criminal statutes are needed 
to combat domestic terrorism. But at the end of the day, it is 
so important that we protect our First Amendment while keeping 
our citizens safe.
    In the wake of the attacks on 9/11, Washington did pass 
many laws that impacted our National security and still do, to 
this day. I think that our country has benefited from those 
greatly. But I also want to make sure that if some of those 
were done in a knee-jerk way, that we also take a very 
thoughtful and measured approach at this point in time, and 
that we consider the effects that may not be immediate but 
could be far-reaching in the future. I know that we have had 
many of those conversations to assess that.
    Today, I hope to hear from our panel witnesses their views 
on their own State domestic terror laws, as well as the 
efficacy of existing Federal criminal offenses that are used in 
domestic terror cases. I hope that we will be able to 
understand the Department of Homeland Security's Targeted 
Violence and Terrorism Prevention Grant Program to see how 
effective and whether the program is working. If not, how we 
can make that better to combat our terror threats within the 
country.
    It is incumbent upon those on this subcommittee to ensure 
that the Department of Homeland Security is doing everything in 
their power to protect American citizens across the range of 
threats in this country that we are facing right now. I know 
and agree with everything that you said that our officers, CBP 
officers, and otherwise throughout the Department of Homeland 
Security, are on the front lines and are doing everything that 
they possibly can. I salute those officers and personnel who 
are willing to risk their lives for American citizens every 
single day.
    We look forward to working with the State and local 
authorities. I would like to thank all of the witnesses that 
are here, those that we have also talked to in the past week, 
to get a better understanding of what we need to do to make 
sure that we do protect American life.
    I look forward to hearing from the witnesses and appreciate 
the willingness of them to join. With that, Madam Chair, thank 
you for your leadership and your commitment to working in a 
bipartisan way to keep Americans safe. I yield back at this 
time.
    [The statement of Ranking Member Pfluger follows:]
               Statement of Ranking Member August Pfluger
                             March 24, 2021
    Thank you, Madam Chair, and I am pleased that the subcommittee is 
holding this hearing today on a topic that is very top-of-mind for many 
Americans these days. I appreciate your commitment to work in a 
bipartisan way to address all terror threats facing this country.
    As we saw in our first official briefing as a subcommittee, getting 
straight answers from the agencies we oversee can be a difficult task; 
however, I am committed to working closely with you on these issues.
    Violent extremism by any group of any political persuasion is 
unacceptable.
    Many of these violent threats are being driven by rampant 
disinformation and misinformation on-line, and has left Federal, State, 
and local authorities with new, unprecedented challenges. All of this 
has led to worthwhile discussions and debates around the merits of 
whether new criminal statutes are needed to combat domestic terrorism. 
At the end of the day: We must protect our first amendment.
    In the wake of the attacks on 9/11, Washington passed many laws 
which impact the National security space to this day. Some of these 
laws were well thought-out and have benefited the American people 
greatly. Others were made as a knee-jerk reaction. We need to make sure 
we are taking a thoughtful and measured approach to the legislation we 
consider in Congress.
    Today, I hope to hear from our panel of witnesses their views on 
their own State domestic terror laws, as well as the efficacy of 
existing Federal criminal offenses used in domestic terror cases. I 
also hope to hear from them how State and local authorities utilize 
Federal grant programs, including the Department of Homeland Security's 
Targeted Violence and Terrorism Prevention (TVTP) grant program. We 
must determine not only how, but if, this programming is working to 
combat the terror threat in our local communities.
    It is incumbent upon those of us on this subcommittee to ensure 
that the Department of Homeland Security is doing everything it can to 
protect Americans from domestic violent extremists. DHS should be at 
the forefront of information sharing, intelligence analysis, and threat 
mitigation.
    We look forward to working with State and local authorities and 
having a bipartisan discussion to learn more about how we can assist 
these important partners in their efforts to combat the terror threat.
    I thank our witnesses for their willingness to appear before the 
subcommittee, today, and I yield back the balance of my time.

    Chairwoman Slotkin. Thank you, Mr. Ranking Member. I now 
welcome our panel of witnesses. Our first witness is Michigan 
Attorney General Dana Nessel, a former criminal prosecutor and 
civil rights attorney. Attorney General Nessel was sworn in as 
Michigan's 54th attorney general in January 2019. As Michigan's 
chief law enforcement officer, Attorney General Nessel oversees 
one of the most robust State terrorism statutes in the Nation.
    Our second witness is Nevada Attorney General Aaron Ford. 
Before serving as the AG for Nevada, AG Ford served as the 
majority leader of the Nevada State Senate. In 2019, Mr. Ford 
sponsored new legislation aimed at countering sovereign 
citizens, an anti-Government extremist movement, particularly 
in Nevada, by prohibiting the creation of fake judicial 
documents, which is a common tactic for adherence of this 
movement.
    Our third and final witness is Milwaukee County District 
Attorney John Chisholm. District Attorney Chisholm's office 
handles criminal cases for the State of Wisconsin in the 
Milwaukee County Circuit Court. DA Chisholm led Milwaukee 
County's response to the 2012 white supremacist terrorist 
attack on a Sikh temple in Oak Tree, Wisconsin.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Attorney 
General Nessel. Please go ahead.

 STATEMENT OF DANA NESSEL, ATTORNEY GENERAL, STATE OF MICHIGAN

    Ms. Nessel. All right. Thank you so much, Chairwoman 
Slotkin, Ranking Member Pfluger, and distinguished Members of 
the Subcommittee on Intelligence and Counterterrorism. Good 
morning and thank you for the invitation to appear before you 
today. Again, my name is Dana Nessel and I am the attorney 
general and chief law enforcement officer of the great State of 
Michigan. I am honored to be with you this morning and I share 
in your commitment to explore ways that we can better confront 
and combat issues related to domestic terrorism. It is my firm 
belief that this growing threat is one of the most serious 
National security issues we face and that it must be addressed 
in a bipartisan manner with local, State, and Federal agencies 
partnering together to ensure that this country and our 
democracy is defended against all enemies, both foreign and 
domestic.
    Now, Michigan is no stranger to the threat of domestic 
terrorism. In many ways, my State has served as ground zero for 
anti-Government militia extremism since the 1990's when it was 
discovered that the Michigan Militia had ties to Oklahoma City 
bombers Timothy McVeigh and Terry Nichols. Though it has been 
more than 25 years since the Oklahoma City bombing, acts of 
domestic terrorism still tear at the very fabric of this 
country. Just last year, my office, as you noted, charged 8 
leaders and associates of the anti-Government extremist 
militia, Wolverine Watchmen, with supporting a terrorist plot 
to kidnap and kill the Governor of our State, to hold members 
of our State legislature hostage in our State Capitol for days 
before ultimately destroying it, and planning to harm law 
enforcement officers who protect and serve our State residents. 
The U.S. Attorney's Office charged another 6 individuals 
stemming from the same investigation.
    In addition, Michigan has recently seen a deluge of threats 
to legislators, judges, and other Government officials on both 
sides of the political aisle.
    In just the past 6 months, we have issued charges against 
individuals in 5 separate cases for threatening public 
officials. That is honestly just the tip of the iceberg. We 
have been asked to review so many cases that my department had 
to establish a special procedure for complaint intake and add 
additional prosecutorial resources to handle complaint review.
    Though the factual nature of the claims may be different, 
my experience in Michigan has demonstrated that acts of 
domestic terrorism are not focused on one political party or 
even one branch of government, and the threat that they present 
is ever-rising. Moreover, anti-Government militia extremism and 
racially-motivated violent extremism is not unique to Michigan.
    FBI Director Christopher Wray has acknowledged in testimony 
before the Senate earlier this month that far-right-wing 
extremists are the most significant terrorist threat facing the 
United States. In his testimony, he stated that at any given 
time, the FBI has approximately 2,000 domestic terrorism 
investigations, and he has repeatedly warned of the mounting 
domestic terror threat in recent years. He has acknowledged 
that racially-motivated violent extremists are also one of the 
most significant domestic terrorism threats. Of these, the most 
lethal attacks over the last few years have involved white 
supremacists.
    So, in light of this serious and growing threat, I have 
expanded my department's Hate Crimes Unit to now include 
domestic terrorism because of the overlap of extremist 
ideologies. I have also directed my department to work with the 
FBI and Michigan State Police and to prioritize these cases for 
prosecutorial review. Now luckily, Michigan is uniquely 
situated to address domestic terrorism because of the Michigan 
Anti-Terrorism Act. This act went into effect with bipartisan 
support in April 2002 following the 9/11 terrorist attacks.
    Our legislature recognized that laws should be enacted to 
adequately address the threats of terrorism against targets in 
our State. These statutes criminalize domestic terrorism by 
providing State prosecutors with the tools necessary to 
prosecute as 20-year felonies the following: Acts of domestic 
terrorism, providing material support or resources for 
terrorism, hindering prosecution of terrorism, communicating 
true or false threats of terrorism, disrupting 
telecommunications of public safety, education, or Government 
operations, and obtaining blueprints or security diagrams for 
terrorism to vulnerable targets like school buildings, houses 
of religious worship, stadiums, and infrastructure.
    In addition to the Michigan Anti-Terrorism Act, my office 
has utilized or could utilize Michigan gang statutes to charge 
individuals acting on behalf of a group and statutes that 
criminalize the impersonation of a police officer and the 
training with firearms and explosives in furtherance of civil 
disorder.
    Now, while Michigan has a robust array of laws to address 
domestic terrorism, many States and Federal prosecutors do not. 
For example, while Federal prosecutors have laws that address 
providing material support for designated foreign terrorist 
organizations, there are no laws to address domestic terrorists 
or home-grown violent extremists. That is a gap that my 
department has used our State laws to fill, but to fully combat 
domestic terrorism across the country, changes to Federal 
criminal laws must be made. Moreover, because we are on the 
front line of this battle, Federal funding is needed for State 
law enforcement offices, like mine, so that we can dedicate 
staff and resources to this cause. If States are doing the 
heavy lifting, they must be adequately resourced.
    Last, and importantly, I want to emphasize that terrorism 
is a messaging crime. Domestic terrorists seek to send a 
message of fear to intimidate and coerce the conduct of 
government, all government. Government must send its own 
message back by labeling extremist violence as domestic 
terrorism. Labels matter. Prosecuting hate-motivated attackers 
as terrorists sends the clear message that the threat of 
extremism is just as significant when it is based on domestic, 
political, religious, or social ideologies as it is when it is 
based on violent jihadism.
    We need bipartisan and aggressive solutions to the problem 
of domestic terrorism because acts of domestic terrorism don't 
just harm the target of the crime, they threaten the very 
foundations of our democracy. The January 6 Capitol riots 
sparked an important National conversation about the potential 
dangers of domestic terrorism, but confronting this threat 
requires more than just talk. It requires swift action.
    For these reasons, I applaud this committee for taking this 
important step and starting this conversation. I appreciate the 
opportunity to share with you the actions that we are taking 
here in Michigan to address this growing crisis.
    I stand ready to work with you in all ways possible to help 
fight terrorism within our borders, to keep our citizens safe, 
and to keep the wheels of our democracy turning. Thank you.
    [The prepared statement of Ms. Nessel follows:]
                   Prepared Statement of Dana Nessel
    Chairwoman Slotkin, Ranking Member Pfluger, and distinguished 
Members of the Subcommittee on Intelligence and Counterterrorism, good 
morning and thank you for the invitation to appear before you today. My 
name is Dana Nessel and I am the attorney general--and chief law 
enforcement officer--of the great State of Michigan. I'm honored to be 
with you this morning and I share in your commitment to explore ways 
that we can better confront, and combat issues related to domestic 
terrorism. It is my firm belief that this growing threat is one of the 
most serious National security issues that we face and that it must be 
addressed in a bipartisan manner with local, State, and Federal 
agencies partnering together to ensure that this country--and our 
democracy--is defended against all enemies, both foreign and domestic.
    Michigan is no stranger to the threat of domestic terrorism. In 
many ways, my State has served as ground zero for anti-Government 
militia extremism since the 1990's when it was discovered that the 
Michigan Militia had ties to Oklahoma City bombers Timothy McVeigh and 
Terry Nichols. Though it has been more than 25 years since the Oklahoma 
City bombing, acts of domestic terrorism still tear at the very fabric 
of this country. Just last year, my office charged 8 leaders and 
associates of the anti-Government extremist militia, Wolverine 
Watchmen, with supporting a terroristic plot to kidnap and kill the 
Governor of our State; to hold members of our State legislature hostage 
in our State capitol for days before ultimately destroying it; and, 
planning to harm law enforcement officers who protect and serve our 
State residents. The U.S. Attorney's Office charged another 6 
individuals stemming from the same investigation. In addition, Michigan 
has recently seen a deluge of threats to legislators, judges, and other 
Government officials on both sides of the political aisle. In just the 
past 6 months, we have issued charges against individuals in 5 separate 
cases for threatening public officials. That's just the tip of the 
iceberg--we've been asked to review so many cases that my department 
had to establish a special procedure for complaint intake and add 
additional prosecutorial resources to handle complaint review.
    Though the factual nature of the claims may be different, my 
experience in Michigan has demonstrated that acts of domestic terrorism 
are not focused on one political party or even one branch of government 
and the threat that they present is ever-rising. Moreover, anti-
Government militia extremism and racially-motivated violent extremism 
are not unique to Michigan.
    FBI Director Christopher Wray has acknowledged in testimony before 
the Senate earlier this month that far-right-wing extremists are the 
most significant domestic terrorism threat facing the United States. In 
his testimony, he stated that at any given time, the FBI has 
approximately 2,000 domestic terrorism investigations, and has 
repeatedly warned of the mounting domestic terror threat in recent 
years. He has acknowledged that racially-motivated violent extremists 
are also one of the most significant domestic terrorism threats. Of 
these, the most lethal attacks over the last few years have involved 
white supremacists.
    In light of this serious and growing threat, I have expanded my 
Department's Hate Crimes Unit to now include Domestic Terrorism because 
of the overlap of extremist ideologies. I have also directed my 
department to work with FBI and Michigan State Police and to prioritize 
these cases for prosecutorial review. Luckily, Michigan is uniquely 
situated to address domestic terrorism because of the Michigan Anti-
Terrorism Act. This act went into effect with bipartisan support in 
April 2002 after the 9/11 terrorist attacks. Our legislature recognized 
that laws should be enacted to adequately address the threats of 
terrorism against targets in our State. These statutes criminalize 
domestic terrorism by providing State prosecutors with the tools to 
prosecute as 20-year felonies:
  <bullet> acts of domestic terrorism
  <bullet> providing material support or resources for terrorism
  <bullet> hindering prosecution of terrorism
  <bullet> communicating true or false threats of terrorism
  <bullet> disrupting telecommunications of public safety, education, 
        or Government operations; and,
  <bullet> obtaining blueprints or security diagrams for terrorism to 
        vulnerable targets like school buildings, houses of religious 
        worship, stadiums, and infrastructure.
    In addition to the Michigan Anti-Terrorism Act, my office has 
utilized or could utilize Michigan gang statutes to charge individuals 
acting on behalf of a group and statutes that criminalize the 
impersonation of a police officer and the training with firearms and 
explosives in furtherance of a civil disorder.
    While Michigan has a robust array of laws to address domestic 
terrorism, many States and Federal prosecutors do not. For example, 
while Federal prosecutors have laws that address providing material 
support for designated ``foreign terrorist organizations,'' there are 
no laws to address domestic terrorists, or ``home-grown'' violent 
extremists. This is a gap that my Department has used our State laws to 
fill, but to fully combat domestic terrorism across the country, 
changes to Federal criminal laws must be made. Moreover, because we are 
on the front line of this battle, Federal funding is needed for State 
law enforcement offices--like mine--so that we can dedicate staff and 
resources to this cause. If States are doing the heavy lifting, they 
must be adequately resourced.
    Last, and importantly, I want to emphasis that terrorism is a 
messaging crime. Domestic terrorists seek to send a message of fear to 
intimidate and coerce the conduct of Government. Government must send 
its own message back by labeling extremist violence as domestic 
terrorism. Labels matter. Prosecuting hate-motivated attackers as 
terrorists sends the clear message that the threat of extremism is just 
as significant when it is based on domestic political, religious, or 
social ideologies as it is when based on violent jihadism.
    We need bipartisan and aggressive solutions to the problem of 
domestic terrorism because acts of domestic terrorism don't just harm 
the target of the crime, they threaten the very foundations of our 
democracy. The January 6 capitol riots sparked an important National 
conversation about the potential dangers of domestic terrorism. But 
confronting this threat requires more than talk--it requires swift 
action. For these reasons, I applaud this committee for taking this 
important step and starting this conversation and I appreciate the 
opportunity to share with you the actions we are taking in Michigan to 
address this growing crisis.
    I am ready to work with you in all ways possible to help fight 
terrorism within our borders; to keep our citizens safe; and to keep 
the wheels of our democracy turning.
    Thank you.

    Chairwoman Slotkin. Thank you, Attorney General Nessel, for 
your testimony. I now recognize Attorney General Ford to 
summarize his statement for 5 minutes.

 STATEMENT OF AARON D. FORD, ATTORNEY GENERAL, STATE OF NEVADA

    Mr. Ford. Thank you so much, Chairwoman Slotkin, Ranking 
Member Pfluger, who incidentally, I am born and raised in 
Texas. I have been a Nevadan for 20 years and have a lot of 
affinity for Texas with my family still being there. So, I 
bring you greetings. Distinguished Members of the subcommittee, 
including Sheila Jackson Lee, who I have worked with in the 
past on several issues.
    My name is Aaron D. Ford, attorney general for the State of 
Nevada. I would like to thank Congresswoman Slotkin for the 
opportunity to speak here. I would like to also congratulate 
and to welcome my good colleague and friend Attorney General 
Dana Nessel, who has unfortunately been on the front line of 
combat in domestic terrorism, as well as Milwaukee County 
District Attorney John Chisholm, who has seen his unfair share 
of domestic terrorism taking place in his city as well. Thank 
you, again, for inviting me to this important conversation 
about ways we can prevent and respond to domestic terrorism.
    Nevada is no stranger to violent acts. On October 1, 2017, 
Las Vegas became the site of the deadliest mass shooting in our 
country's history. Sixty innocent people were killed and nearly 
1,000 injured, all who were simply trying to enjoy a music 
festival. This tragedy shook our community and terrified the 
Nation. We all know too well the pain that our fellow Americans 
in Atlanta, Georgia and Boulder, Colorado are feeling right 
now. Our hearts go out to those communities.
    As much as I would like to say that was an isolated 
incident, we all know that that is not true. It is one of a 
handful of tragic events over the last decade. Nevada continues 
to grapple with domestic violent extremism, whether it be anti-
Government extremists who threaten or commit violence against 
the Government, racially or ethnically motivated violent 
extremists who target certain people, or extremists that 
utilize undefined ideologies to justify their violence.
    An incident in 2014, in Bunkerville, Nevada, involved an 
armed militia comprised of anti-Government activists who 
confronted the Bureau of Land Management over a land dispute. 
They aimed loaded weapons at law enforcement in what came to be 
known as the Battle of Bunkerville. Not long after this 
incident, two Las Vegas Metropolitan Police Department officers 
and a good Samaritan were murdered in Las Vegas by anti-
Government extremists. Just last year, a Nevada highway patrol 
trooper was killed in the line of duty by an individual who 
demonstrated anti-Government extremist tendencies. Currently, 
the Clark County District Attorney's Office and the United 
States Attorney for the District of Nevada are jointly 
prosecuting an attempted bombing planned by perpetrators 
associated with the Boogaloo Bois, which is a loosely organized 
far-right anti-Government extremist movement.
    Terms such as domestic violent extremism and domestic 
terrorism do not always mean the same thing to everyone. In 
fact, the October 1, 2017 shooting was not considered an act of 
terrorism under Federal law, presumably due to the lack of 
known political motivation and lack of international nexus. The 
perpetrator of this heinous crime was referred to as a ``lone 
wolf.'' The phrase lone wolf has been used to reference many 
culprits of mass violence who are usually White. Calling 
someone a lone wolf implies that they are not terrorists 
because they are not connected to a State sponsor of terrorism 
or other group organized around a political ideology. However, 
had the perpetrator of the 2017 mass shooting survived, he 
likely would have been charged as a terrorist under Nevada law.
    Nevada Revised Statutes defines acts of terrorism and 
creates criminal penalties for acts of terrorism or attempted 
acts of terrorism. This law was passed in the aftermath of 9/11 
and it has proven to be a powerful tool for Nevada in charging 
terrorists. The Nevada terrorism statute does not require us to 
prove hate, political ideology, or other motivation. Nevada law 
defines terrorism as sabotage, coercion, or violence which is 
intended to ``cause great bodily harm or death to the general 
population'' or substantial destruction, contamination, or 
impairment to a building, infrastructure, utilities, or natural 
resources.
    You may be familiar with and you have recently heard the 
term, sovereign citizens. These individuals do not recognize 
the authority of any government or our laws. The movement also 
has racist and anti-Semitic ties, believing that certain racial 
and ethnic groups have taken over our Government and financial 
institutions.
    The sovereign citizens movement is considered by the FBI as 
domestic terrorism, extremism. Experts with the Southern Nevada 
Counter Terrorism Center estimate that as many as 500 sovereign 
citizens reside here in Nevada representing the largest 
domestic terrorism threat in our State. Sovereign citizens are 
responsible for the murders of Las Vegas metropolitan police 
officers that I referenced earlier in my testimony.
    A common tactic of sovereign citizens is to serve false 
legal documents such as summons, fines, or even arrest warrants 
on representatives of the Government from their own made-up 
courts. Sovereign citizens often target law enforcement 
officers, prosecutors, and judges as we are viewed as enforcing 
laws that they do not recognize. Even our broad definition of 
terrorism was not sufficient to address some of the common 
tactics of domestic terrorists.
    In 2019, I personally sponsored a bill in the Nevada State 
legislator that criminalized simulated or fake legal documents 
purporting to be from false courts with the intent to harass or 
defraud someone. When testifying on the bill I sponsored, a 
detective with the Las Vegas Metropolitan Police Department 
assigned to the Southern Nevada Counter Terrorism Center said 
that he and other officers received fake indictments and arrest 
warrants for treason. The penalty for treason is death. The 
goal of this legislation was to crack down on this tactic used 
by sovereign citizens whether the tactic is being used as part 
of a scam or used to target and threaten violence.
    One of the questions that the subcommittee posed to us is 
whether in light of January 6, 2021, that attack on the 
Capitol, additional Federal legislation is needed to combat 
domestic terrorism. So, in my opinion, does Federal law need a 
refresh? To use a lawyer's term of art, it depends. There are 
no easy fixes in the fight against domestic terrorism. With the 
rise of domestic violent extremism, there is no question that 
something needs to be change so that can ensure public safety.
    I would recommend that we take a measured approach to 
enacting new laws regarding counterterrorism to include the 
protection of privacy, free speech, and the right to bear arms. 
It is important for us to assess and balance the rights of 
individuals with matters of security and safety.
    Chairwoman Slotkin. Excuse me.
    Mr. Ford. There are----
    [The prepared statement of Mr. Ford follows:]
                  Prepared Statement of Aaron D. Ford
                             March 24, 2121
    Chairwoman Slotkin, Ranking Member Pfluger, and distinguished 
Members of the subcommittee, my name is Aaron D. Ford, attorney general 
for the State of Nevada. Thank you for inviting Nevada, along with 
other members of the National Association of Attorneys General (NAAG) 
to this important conversation about ways in which we can collaborate 
and respond to domestic terrorism.
    a. nevada is no stranger to violent acts and domestic terrorism
    Nevada is no stranger to violent acts. Las Vegas became the site of 
the largest mass casualty incident in the United States on October 1, 
2017, which tragically took the lives of 60 innocent people and injured 
nearly 1,000, all who were simply trying to enjoy a music festival. 
This tragic incident shook our community and terrified the Nation.
    As much I would like to say that this was an isolated incident of 
violence in our State, it is only one of a handful of tragic events 
that have occurred within the Silver State over the last decade. Nevada 
continues to grapple with domestic violent extremism, whether it be 
anti-Government extremists who have threatened to, or have committed, 
violence against the Government; racially- or ethnically-motivated 
violent extremists that target certain population groups; or extremists 
that utilize undefined ideologies to justify their violence. An 
incident in 2014, in Bunkerville, Nevada, involved an armed militia 
comprised of anti-Government activists who confronted the Bureau of 
Land Management over a land dispute. They aimed loaded weapons at law 
enforcement in what came to be known as the ``Battle of Bunkerville.'' 
Many in law enforcement consider the activists to be extremists or 
domestic terrorists. While there was no loss of life because of this 
event, the stand-off was the largest armed uprising against the Federal 
Government in decades, inspiring militias across the United States. 
People involved in the ``Battle of Bunkerville'' later moved to Oregon 
and led a 41-day occupation of the Malheur National Wildlife Refuge.
    Not long after, in 2014, 2 Las Vegas Metropolitan Police Department 
(LVMPD) officers and a Good Samaritan were ambushed in Las Vegas by 
anti-Government extremists, losing their lives. Had the extremists 
survived, there is a possibility they may have been charged as 
terrorists under Nevada law. Just last year, a Nevada Highway Patrol 
trooper was killed in the line of duty by an individual who 
demonstrated anti-Government extremist tendencies.
    Terms such as ``domestic violent extremism'' and ``domestic 
terrorism'' do not always mean the same thing to everyone. In fact, the 
2017 shooting was not considered an act of terrorism under Federal law, 
presumably due to the lack of known political motivation and lack of 
international nexus. The perpetrator of this heinous crime was commonly 
referred to as a ``lone wolf.'' The phrase ``lone wolf'' has been used 
to reference many culprits of mass violence who are usually White. 
Calling someone a ``lone wolf'' implies that they are not terrorists 
because they are not connected to a State sponsor of terrorism or other 
group centrally organized around a political ideology. However, had the 
perpetrator of the 2017 mass shooting survived, he could have, and 
likely would have been, charged as a terrorist under Nevada law because 
Nevada law does not require a political motive or link to international 
terror groups.
b. nevada's definition of terrorism allows for prosecution based on the 
  extent and type of harm rather than on the motivation underlying it
    Nevada Revised Statues defines ``Acts of Terrorism'' and creates 
criminal penalties for Acts of Terrorism or Attempted Acts of 
Terrorism. This law was passed in the aftermath of 9/11 and has proved 
to be a powerful tool for Nevada in charging terrorists. The Nevada 
terrorism statute does not require us to prove hate, political 
ideology, or other motivation. Nev. Rev. Stat.  202.4415 defines 
terrorism as an attempted use of sabotage, coercion, or violence which 
is intended to ``Cause great bodily harm or death to the general 
population'' or substantial destruction, contamination, or impairment 
to a building, infrastructure, utilities, or natural resources/
environment. The laws used to prosecute terrorism and other related 
crimes as I just defined include:
  <bullet> Nev. Rev. Stat.  202.445: Acts of terrorism or attempted 
        acts of terrorism.
  <bullet> Nev. Rev. Stat.  202.4408: Threats or conveying false 
        information concerning acts of terrorism.
  <bullet> Nev. Rev. Stat.  203.117: Criminal Syndicalism (rarely 
        used.)
  <bullet> Nev. Rev. Stat.  412.604: Laws Relating to ``Militias'' 
        where it is unlawful to drill or parade with arms by voluntary 
        company or voluntary organization without license or consent of 
        Governor (rarely used.)
  <bullet> Nev. Rev. Stat.  203.080: Makes it a misdemeanor for ``any 
        body of individuals other than municipal police, university or 
        public school cadets or companies, militia of the State or 
        troops of the United States, to associate themselves together 
        as a military company with arms without the consent of the 
        Governor.''
    Under Nevada law, terrorism can also be charged as an enhancement 
(Nev. Rev. Stat.  193.1685.) Enhancements allow for an additional 
penalty of 1-20 years in prison that must run consecutive to an 
underlying conviction. Hate-motivated crimes can only be charged as an 
enhancement under current Nevada law (Nev. Rev. Stat.  193.1675.) In 
Nevada there are also prohibitions against certain persons possessing 
firearms (Nev. Rev. Stat.  202.360) or the sale or possession of tear 
gas, bombs, or weapons which are not permitted under Nevada law (Nev. 
Rev. Stat.  202.360.)
   c. nevada is addressing the growing threat of ``paper terrorists''
    You may be familiar with the term ``sovereign citizens.'' These 
individuals do not recognize the authority of local, State, or Federal 
Governments or our laws. For years, the FBI has recognized the 
sovereign citizen movement as domestic terrorism extremism. Experts 
with the Southern Nevada Counter Terrorism Center estimate that as many 
as 500 sovereign citizens reside in Nevada, representing the largest 
domestic terrorism threat in our State. The movement also has racist 
and anti-Semitic ties, believing that certain racial and ethnic groups 
have taken over the Government and financial institutions.
    A common tactic of sovereign citizens is to serve false legal 
documents such as summons, fines, or even arrest warrants on 
representatives of the Government from their own made-up courts. 
Sovereign citizens often target law enforcement officers, prosecutors, 
and judges as we are viewed as enforcing laws they do not recognize. 
Some sovereign citizens file false liens against properties to prevent 
their sale, fake tax returns, or other documents as the basis of 
financial fraud. For example, sovereign citizens have served fake court 
documents to Nevadans, especially seniors, ordering that person to pay 
a fine or another amount as part of a scam.
    What can begin as a nuisance can quickly escalate to violence. In 
2014, the 2 Las Vegas Metropolitan Police officers referenced earlier 
were murdered by sovereign citizens. After shooting the officers, the 
murderers draped the Gadsden flag \1\ over their bodies with a note to 
``Tell the Police that the revolution has begun.'' In another incident, 
Las Vegas Metropolitan Police infiltrated a plot to kidnap and execute 
police. When testifying on the bill I sponsored, a detective with the 
Las Vegas Metropolitan Police assigned to the Southern Nevada Counter 
Terrorism Center Stated that he and other officers received fake 
indictments and arrest warrants for treason and ``the penalty for 
treason is death.''
---------------------------------------------------------------------------
    \1\ Sottile, Leah (August 19, 2020). ``Inside the Boogaloo: 
America's Extremely Online Extremists.'' The New York Times. Retrieved 
November 7, 2020.
---------------------------------------------------------------------------
    In 2019, I sponsored a bill in the Nevada State legislature that 
criminalized simulated or fake legal documents purporting to be from 
false courts with the intent to harass or defraud someone. The goal of 
this legislation was to crack down on this tactic used by sovereign 
citizens, whether the tactic is being used as part of a scam or used to 
target and threaten violence.
 d. we are working to address gaps in prevention, investigations, and 
         partnerships across local, state, and federal agencies
    Federal funding is a much-needed resource in a State's fight 
against domestic terrorism. Federal assistance after a domestic 
terrorism event is critical to a State's ability to respond to, and 
recover from, a mass violence or domestic terrorism event, and should 
be considered in the analysis of a Federal law change. The way an 
incident is defined in law has an impact on how response and recovery 
can be funded.
    After the 2017 mass shooting, Nevada received Federal funding, but 
it did not fall under the Stafford Disaster Relief and Emergency 
Assistance Act. Other mass casualty incidents that preceded 1 October, 
such as the Pulse nightclub shooting, were not granted assistance under 
the Stafford Act. The definition of ``major disaster'' in the Stafford 
Act that dictates eligibility is very restrictive as it relates to 
terrorist attacks if the event does not include a fire or explosion. We 
can all agree that mass shootings can be no less deadly or horrific 
than an explosion, but it is uncertain if the current definition in the 
Stafford Act would include these events. In the case of the 2017 mass 
shooting, the Nevada Department of Health and Human Services received a 
grant from U.S. Department of Justice's Anti-terrorism Emergency 
Assistance Program, which was utilized for the overtime needed to 
respond to the event, as well as mental health treatment.\2\
---------------------------------------------------------------------------
    \2\ Antiterrorism and Emergency Assistance Program (AEAP), 
available at https://ovc.ojp.gov/program/antiterrorism-and-emergency-
assistance-program-aeap/overview.
---------------------------------------------------------------------------
    On the investigatory side of terrorism, more tools are needed for 
prevention and further legislation could help satisfy that need. 
Existing law enforcement tools used by first responders working to 
mitigate domestic terrorism include Fusion Centers, emergency 
management systems, and information sharing through Suspicious Activity 
Reports (SARS.) Still, we can do better by increasing partnerships, 
improving the accuracy of shared information, and more expedient SARS 
follow-up. One suggestion I have heard from law enforcement would be to 
implement a State-wide notification process like the Amber Alert 
System.
    We need more data to determine trends and provide information about 
who are domestic terrorists. It would be helpful to have more 
flexibility for Federal law enforcement agencies to share information 
with local law enforcement, especially when serving on joint task 
forces. The Domestic National Terrorism Data Act, Sect 5602 of fiscal 
year 20220 [sic] National Defense Authorization Act, may help in some 
of these areas.
    State, local, and Federal agencies work both independently and in 
collaboration with each other to combat domestic terrorism. Imagine a 
Venn diagram where the work we do intersects. When these partnerships 
fail, domestic terrorism thrives. It matters who is investigating 
domestic terrorism and the diversity of thought and background within 
the ranks of law enforcement. Diversity is an advantage in law 
enforcement because it helps guard against groupthink and blind spots.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

(1) Local Prosecutors are on the Front Line
    The Clark County District Attorney's Office, Major Violator's Unit, 
has been most active in prosecuting crimes under Nevada's Terrorism 
statutes. Since 2016, the CCDA has been working hand-in-hand with 
Federal agents through the Southern Nevada Counter Terrorism Center. 
This enables them to work with Federal prosecutors wherein subjects can 
be charged both under Federal and State law. The number of domestic 
terrorism cases the CCDA prosecutes varies each year and can range 
between 7-15 prosecutions per year. Currently, the CCDA and the United 
States Attorney for the District of Nevada are jointly prosecuting a 
case against the Boogaloo Boys or Boogaloo Bois, which is a loosely-
organized, far-right anti-Government extremist political movement in 
the United States. My office has primary jurisdiction over crimes 
committed in the Nevada Department of Corrections and we have 
coordinated with the CCDA to investigate or prosecute crimes of 
violence and domestic terrorism coordinated between persons 
incarcerated and those on the streets. This kind of coordination mostly 
pertains to members of various gangs.
(2) Fusion Centers and Regional Intelligence Centers are Instrumental 
        (located in both Northern and Southern Nevada)
    Our office coordinates with local law enforcement agencies and 
Federal agencies through the Southern Nevada Counter Terrorism Center. 
The 3 main intelligence-sharing entities include the Northern Nevada 
Regional Intelligence Center (NNRIC), the Southern Nevada Counter 
Terrorism Center (SNCTC) and the Nevada Threat Analysis Center (NTAC). 
My staff and I have solicited input from directors of Fusion Centers 
and incorporated some of their thoughts and information herein. During 
the 2021 election season and local events relating to the certification 
of the Presidential election, the fusion centers were vital in our 
ability to obtain public concerns and complaints regarding potential or 
threatened acts of violence to both local and Federal partners in real 
time. The way the fusion centers are structured is what makes this a 
particularly powerful tool in combatting domestic terrorism. For 
example, the SNCTC represents a collaboration of Government and private 
entities monitoring and collecting data on the Las Vegas Strip via 
multiple live stream camera feeds to protect critical infrastructure 
and monitor criminal activity that may result in the loss of life or 
that critical infrastructure.
(3) Joint Terrorism Task Forces (JTTF) are Located Throughout the 
        United States
    Partnerships strengthen our ability to investigate and disrupt 
domestic terrorism. One of those partnerships is the Joint Terrorism 
Task Forces (JTTF.) The JTTF comprises locally-based investigators, 
analysts, linguists, and other specialists from law enforcement. As you 
know, these JTTFs exist in many, if not all States. According to the 
FBI, there are about 200 task forces around the country, including at 
least one in each of the FBI's 56 field offices, with hundreds of 
participating State, local, and Federal agencies.
    My office has participated in Nevada's JTTF. However, there are 
serious challenges for such a task force, given the existing Federal 
legislation. Because so much of what we combat on the local level is 
not associated with foreign state sponsors or organized foreign 
terrorist groups, the task force has limited jurisdiction and goals. 
Our work with the JTTF has revolved around cases involving fraudulent 
documents. This is what led to us sponsoring Nevada's Assembly Bill 15 
during the 2019 legislative session. Prior to the passage of this law, 
we used a mishmash of statutes to address the illegal filings of 
``sovereign citizens.''
    e. we need to balance fundamental rights with security concerns
    One of the questions staff posed to us in advance of this hearing 
is whether, in light of the January 6, 2021 attack on the Capitol, 
additional Federal legislation is needed to combat domestic terrorism. 
So, in my opinion, does Federal law need a refresh? Probably--or to use 
a lawyer's term of art--it depends. Federal law defines the term 
``domestic terrorism,'' but does not provide a law under which it can 
be specifically and directly prosecuted.
    There are no easy fixes in the fight against domestic terrorism. 
Unfortunately, the ability to prosecute domestic terrorism after the 
fact does not address the lack of investigatory tools needed to prevent 
domestic violent extremism events from happening in the first place. 
With the rise of domestic violent extremism in Nevada and across the 
Nation there is no question that something needs to change so we can 
ensure public safety. As leaders, we must devise ways to combat these 
threats while still honoring the Constitutional protections that exist 
for our citizens. Any law that seeks to criminalize domestic terrorism 
will have to be narrowly tailored to ensure that our civil rights are 
not unreasonably impacted by the changes in law.
    I recommend we take a measured approach to enacting new laws 
regarding counterterrorism to include the protection of privacy, free 
speech, and the right to bear arms. It is important for us to assess 
and balance the rights of individuals with matters of security and 
safety. We cannot ban all vulgar, derisive, or controversial rhetoric 
as terrorism. The United States Supreme Court has opined that to 
prosecute specific conduct or language as being evidence of 
intimidation or other malevolence, there must be a real threat.\3\ 
Other considerations to weigh when crafting new Federal legislation 
include States' rights, freedom of peaceful assembly, and freedom of 
association. We must also consider implicit and explicit biases 
throughout the criminal justice system that may penalize violent 
extremists from one race or ethnicity less harshly and less frequently 
than those belonging to immigrant or minority groups. Equally important 
is the need to safeguard or insulate prosecutorial discretion from the 
political process or from those in power who would seek to punish 
political rivals.
---------------------------------------------------------------------------
    \3\ Virginia v. Black, 538 U.S. 343, 123 S. Ct. 1536, 155 L. Ed. 2d 
535 (2003). This case sets guidance on what is a true threat. Ku Klux 
Klan member appealed his conviction under a Virginia State Statute 
classifying cross burning in itself as prima facie evidence of an 
intent to intimidate. Supreme Court found statute unconstitutional 
because cross burning is protected as long as the intent is to exercise 
political speech and not intimidate.
    Brandenburg v. Ohio, 395 U.S. 444, 89 S. Ct. 1827, 23 L. Ed. 2d 430 
(1969). Ku Klux Klan member appealed conviction of violating Ohio 
Criminal Syndicalism Act during Klan meeting. Supreme Court overturned 
because the act ``failed to distinguish mere advocacy from incitement 
to imminent lawless action, violates First and Fourteenth Amendments.''
---------------------------------------------------------------------------
    Another element worthy of discussion at the Federal level is how 
people are radicalized and the proliferation of terrorism planning 
using the internet and social media. A person can now be radicalized in 
a relatively short period of time from on-line interactions and 
viewings. On-line algorithms are designed to serve up news and 
information exclusive to a person's appetite, leading to an 
increasingly isolated point of view. In several recent terrorist 
attacks, the perpetrators used the internet to post manifestos or hate 
speech leading up to an attack. The perpetrator of the 2015 shooting at 
the Emanuel African Methodist Episcopal Church in Charleston, South 
Carolina had his own website where he posted his white-supremacist 
screed. The perpetrator of the 2016 shooting at Pulse nightclub in 
Orlando, Florida watched violent jihadist videos on-line. The 
perpetrator of the 2018 shooting at the Tree of Life synagogue in 
Pittsburgh, Pennsylvania frequently posted antisemitic and anti-
immigrant hate speech on a social media platform called Gab, even 
announcing on-line ``I'm going in'' just 5 minutes before he started 
shooting. The perpetrator of the 2019 Escondido, California mosque fire 
and the shooting at the Chabad of Poway synagogue posted a racist and 
antisemitic manifesto on 8kun, previously called 8chan. Likewise, the 
perpetrator of the El Paso, Texas Wal-Mart shooting posted an anti-
Hispanic racist manifesto on 8kun. Both of those perpetrators cited the 
Christchurch, New Zealand mosque shooting that was livestreamed on 
social media as their inspiration.
    We need to examine why our country appears to be growing 
increasingly vulnerable to domestic terrorism and how isolation can 
lead to radicalization and even violence. Of course, the internet is 
the 21st Century's town square and we do not lose our First Amendment 
rights to free speech when we go on-line. Not every person who uses 
hate speech on-line goes on to commit a violent attack. But nearly 
every person who has committed domestic terrorism in recent years has 
used the internet to plan their attack or participate in a hate-fueled 
social media discourse preceding the attack. Often, these terrorists 
are hiding in plain sight.
                f. we have much to learn from each other
    One of the values I promote throughout the office is community 
engagement. Through community engagement we can work with educational 
institutions, community groups, and local and Federal law enforcement 
agencies. We help build resiliency in our communities through training 
and education to increase cultural understanding and to recognize blind 
spots relative to racial and ethnic needs. Deep and trusting 
relationships between community members and between law enforcement and 
the communities they serve increases public safety and helps prevent 
violence. When people in a community know each other well enough to 
recognize when someone is at risk of radicalization or violent 
behavior, and when those community members trust law enforcement enough 
to report that information, we have an opportunity to intervene and 
prevent violence. We can ensure that person receives mental health 
services and other resources. My office frequently holds virtual town 
halls so the community can view us as a resource and an ally.
    Building community relationships and trust helps prevent 
``othering,'' or viewing another group of people as intrinsically 
different than you. It is much more difficult to harm someone you view 
as your neighbor or believe a conspiracy theory about someone you know 
and trust. All of our institutions have a responsibility to foster this 
community building, from civic education in our children's classroom, 
to the media that provides us information about the world, to law 
enforcement and every level of our Government. When we invest the time 
and resources into community building, the results serve us all.
    As part of NAAG, I work with and learn from other Attorneys General 
to tackle tough problems. D.C. Attorney General Karl Racine and current 
president of NAAG has made fighting hate his Presidential Initiative. 
Michigan Attorney General Dana Nessel shares lessons learned from the 
failed attempt to kidnap and execute Governor Whitmer. Illinois 
Attorney General Kwame Raoul is working with the United States Secret 
Service and Homeland Security to educate communities on how to combat 
hate and terrorism. This program is designed toward prevention and 
education by bringing together community leaders, after-school program 
administrators, volunteer program administrators, hospital staff and 
administrators, community safety and security personnel, mental health 
professionals, and law enforcement. To paraphrase a quote from the 
Bible, ``We don't fight against flesh and blood.'' That is, we do not 
fight against our fellow Americans. We fight against misinformation, 
radicalization, and ignorance. We fight against hate. In doing so, we 
must learn from each other, share information with each other and make 
our communities safer to defeat domestic terrorism.

    Chairwoman Slotkin. Attorney General Ford, I will just say 
I am sure we will get to it in questions. I want to make sure 
we have time to get to our next witness. Sorry, to cut you off. 
I apologize, but I know people will be asking you questions 
about your last couple of comments there. With that, I am going 
to turn and recognize Mr. Chisholm to summarize his statement 
in 5 minutes, please.

  STATEMENT OF JOHN T. CHISHOLM, DISTRICT ATTORNEY, MILWAUKEE 
                       COUNTY, WISCONSIN

    Mr. Chisholm. Good morning Chairwoman Slotkin, Ranking 
Member Pfluger, distinguished Members of the subcommittee. My 
name is John Chisholm. I am the district attorney of Milwaukee 
County, Wisconsin, serving since 2007. For the 12 years 
preceding my election, I was an assistant district attorney in 
the same jurisdiction specializing primarily in criminal 
prosecutions related to illegal firearm use and violence. As 
district attorney, I have participated in our jurisdiction's 
response to acts of domestic violent extremism, and in our 
preparations to forestall future attacks. I appear before you 
this morning in the hope that my experience as a local public 
safety policy maker may prove of use in your deliberations 
concerning one of the critical issues of our time, and that is 
the resurgence, in the form of domestic extremism of political 
violence within American public life.
    What I believe is very simple. In order for our democracy 
to survive, we must maintain a steadfast commitment to 
maximizing individual liberty while restraining acts that harm 
the social compact. This means an absolute intolerance of 
unlawful violence, without qualification, whether interpersonal 
or political. As a prosecutor, I have devoted my career to 
preventing and responding to acts of interpersonal violence and 
holding those perpetrators to account. The same vigor with 
which we investigate and prosecute interpersonal violence must 
be applied to our efforts to curb violent extremism in our 
country, regardless of the political spectrum it arises from.
    My experience in responding to acts of extremism dates to 
August 5, 2012, when a White Supremacist attacked the Sikh 
Temple of Wisconsin here in Oak Creek, Wisconsin, killing 6 
members of our Sikh community and severely wounding several 
others, including an Oak Creek police lieutenant. As recently 
as last year, a Sikh priest wounded in this attack died of the 
injuries he sustained that day.
    I responded in person to the scene that day with my 
investigative staff and with my victim services staff. I knew 
some of the people in that place of worship because prior to 
that day, the president of the Sikh Temple, Satwant Singh 
Kaleka, had invited me and other elected officials to share the 
Sikh faith's commitment to fully participating in civic life in 
our county and to address his concerns about the safety of the 
Sikh community.
    While the memory of the tragic suffering of our Sikh 
brothers and sisters that day will always remain fresh with me, 
what stands out the most in my mind is the bond that was forged 
in the shared sacrifice between the officers who responded that 
day and the incredible lesson in compassion, dignity, 
forgiveness displayed by the Sikh community and embraced by the 
larger Milwaukee community after the shooting. The role of the 
Department of Justice in facilitating that healing was 
significant. I intentionally refrain from naming the person who 
walked into a temple of worship and gunned down innocent people 
of peace. I think instead of the bravery of the people inside, 
how Lieutenant Murphy, as the first officer on scene, 
confronted in close combat the offender, was wounded 15 times, 
but stopped him long enough for a fellow officer to arrive and 
bring the rampage to an end.
    When violence struck our jurisdiction, we responded using a 
toolbox that is often more readily accessible than it may 
appear, our existing criminal intelligence infrastructure, 
historically used to combat illegal drug commerce and the 
violence associated with it such as our Milwaukee High 
Intensity Drug Trafficking Area. We also developed our 
Intelligence Fusion Center, a collaborative effort anchored at 
the Milwaukee Police Department comprising personnel and 
resources from suburban jurisdictions, Milwaukee County 
agencies, and our Federal and State partners. Over the years, 
this criminal intelligence infrastructure has supplemented 
resources dedicated exclusively to counterterrorism.
    This structure and its corresponding communication 
platforms allowed us to work on the ground to communicate real 
time to a dynamic threat.
    An additional consideration at the local level is that in 
the event of violence occasioned by political extremism, 
members of the public, in jurisdictions of all sizes, must have 
the reassurance that their local law enforcement agencies can 
serve as a reliable first line of defense. Always, we have to 
make sure that our public safety preparations both in spirit 
and in practice align with the expressed direction of the 
people we serve.
    One potential solution, taking all these factors into 
account, is to increase Federal financial support for mutual 
aid compacts at the local and regional levels. These compacts 
can equip mobile response teams to respond to violent incidents 
in smaller neighboring communities, with the signed consent of 
those communities' elected civilian leadership. Southeastern 
Wisconsin has experienced success with such a model, in the 
form of a regional partnership called SMART, the Suburban 
Mutual Aid Response Team.
    In addition, there should be a robust discussion about the 
appropriate and the restrained use of hate crime laws both at 
the State and Federal level. Most local jurisdictions operate 
under States laws designed to address substantive underlying 
offences. We rarely address the motive behind a harmful act. We 
instead focus on issues of intent, recklessness, and 
negligence. Our laws are often designed as here in Wisconsin, 
as enhancers to the underlying crime. Working closely with our 
partners in the United States Attorney's Office allows us to 
address the broader issues of unlawful motive. However, I 
believe that the time has come that our respective States 
should create a framework for addressing hate crimes and acts 
of domestic terror in a more comprehensive way, perhaps by 
authorizing our State attorney generals, as we have heard in 
Michigan, to commence prosecutions related to violations of 
civil liberties based on the respective rights in each State 
constitution.
    I will finish by indicating that in 1973, the Berger 
Commission was addressing similar issues related of National 
importance and Professors Remington and Goldstein from the 
University of Wisconsin had this to say: ``Those in the system 
must work together through liaison, cooperation, and 
constructive joint effort. It is effective to the operation of 
the police and the entire criminal justice system to achieve 
optimum police effectiveness, they should be--the police should 
be recognized as having complex and multiple tasks to perform 
in addition to apprehending people committing serious offenses. 
Such other tasks include the protection of certain rights such 
as to speak and to assemble, participation directly in social 
agencies in the prevention of criminal and delinquent behavior, 
the maintenance of order and assistance to citizens in need 
such as those who are mentally ill, the chronic alcoholic, and 
the drug addict.''
    This was written at a time of social unrest not wholly 
dissimilar to our own. Each generation faces its own unique 
challenges, but we must endeavor to respond in a way that 
learns both from past failure and past success and allows 
future generations the right to expand and enrich upon this 
unique experiment in democracy by promoting respectful 
discourse and rejecting violence as a path to change.
    Thank you for inviting me to speak and I will provide any 
assistance requested as you work to address this issue of 
National importance. Thank you very much.
    [The prepared statement of Mr. Chisholm follows:]
                 Prepared Statement of John T. Chisholm
                             March 22, 2021
    Good morning, Mr. Chairman, and Members of the subcommittee. My 
name is John Chisholm, and I am the district attorney of Milwaukee 
County, Wisconsin, serving since 2007. For the 12 years preceding my 
election, I was an assistant district attorney in the same 
jurisdiction, specializing primarily in criminal prosecutions related 
to illegal firearms and violence.
    As district attorney, I have participated in our jurisdiction's 
response to acts of domestic violent extremism, and in our preparations 
to forestall future attacks. I appear before the subcommittee this 
morning in the hope that my experience as a local public safety policy 
maker may prove of use to your deliberations concerning one of the 
critical issues of our time: The resurgence, in the form of domestic 
violent extremism, of political violence within American public life.
    I will refrain from conducting an unsolicited examination of the 
causes of domestic violent extremism. What I will state is very simple: 
In order for our democracy to survive, we must maintain a steadfast 
commitment to maximizing individual civil liberty while restraining 
acts that harm the social compact. This means an absolute intolerance 
of unlawful violence, without qualification, whether interpersonal or 
political. As a prosecutor, I have devoted my career to preventing and 
responding to acts of interpersonal violence and holding those 
perpetrators to account. The same vigor with which we investigate and 
prosecute interpersonal violence must be applied to our efforts to curb 
violent extremism in our country, regardless of the political spectrum 
it arises from.
    My experience in responding to acts of domestic violent extremism 
dates to August 5, 2012, when a white supremacist terrorist attacked 
the Sikh Temple of Wisconsin in Oak Creek, Wisconsin, killing 6 members 
of our Sikh community and severely wounding several others, including 
an Oak Creek police lieutenant. As recently as last year, a Sikh priest 
wounded in this attack died of the injuries he sustained that day. I 
responded in person to the scene that day with my investigative staff 
and my victim services staff. I knew some of the people in that place 
of worship because prior to that day the president of the Sikh Temple, 
Satwant Singh Kaleka, had invited me and other elected officials to 
share the Sikh faith's commitment to fully participating in the civic 
life in our county and to address his concerns about the safety of the 
Sikh community in Milwaukee.
    While the memory of the tragic suffering of our Sikh brothers and 
sisters that day will always remain fresh with me, and I am willing to 
give more details as needed, what stands out most is the bond forged in 
the shared sacrifice between the officers who responded that day and 
the incredible lesson in compassion, dignity, and forgiveness displayed 
by the Sikh community and embraced by the larger Milwaukee community 
after the shooting. The role of the Department of Justice in 
facilitating healing was significant. I intentionally refrain from 
naming the person who walked into a temple of worship and gunned down 7 
innocent unarmed people of peace. I think instead of the bravery of the 
people inside and how Lieutenant Murphy, as the first officer on scene, 
immediately confronted the terrorist in close-combat, was wounded 15 
times, but stopped him long enough for a fellow officer to arrive and 
help bring the rampage to an end.
    When domestic violent extremism struck within our jurisdiction, we 
responded using a toolbox that is often more readily accessible than it 
may appear: Our existing criminal intelligence infrastructure, 
historically utilized to combat illegal drug commerce and the violence 
associated with it such as the Milwaukee High Intensity Drug 
Trafficking Area. In Milwaukee County, we also developed our 
Intelligence Fusion Center, a collaborative effort anchored at the 
Milwaukee Police Department but comprising personnel and resources from 
suburban jurisdictions, Milwaukee County agencies, and our Federal and 
State partners. Over the years, this criminal intelligence 
infrastructure has supplemented resources dedicated exclusively to 
counterterrorism, including the Southeastern Wisconsin Threat Analysis 
Center and the Joint Terrorism Task Force led by our local FBI field 
office.
    This structure, and its corresponding communication platforms, 
allowed members of law enforcement agencies ``on the ground'' to 
communicate in real time to respond to a dynamic threat. Efforts that 
foster flexibility within criminal investigative and intelligence 
functions, so that they can easily be reallocated to the fight against 
domestic violent extremism, will be critical in empowering mid-sized 
and smaller jurisdictions to assume leadership roles on the front lines 
of this National effort.
    An additional consideration at the local level is that, in the 
event of violence occasioned by political extremism, members of the 
public--in jurisdictions of all sizes--must have the reassurance that 
their local law enforcement agencies can serve as a reliable first line 
of defense. As we have seen over the past year, domestic violent 
extremists are willing to use significant firepower and a wide variety 
of asymmetric tactics, requiring preparedness and flexibility on the 
part of even small and mid-sized agencies. But we must also be careful 
so as not to force unprepared or untrained line personnel within our 
local law enforcement agencies--particularly agencies without much 
experience in these matters--into dynamic tactical or crowd management 
situations. An error in law enforcement judgment can result, 
respectively, in death or injury to personnel in a tactical situation 
or in the unlawful deprivation of civil liberties in a disturbance 
mitigation setting. We must also be mindful that all our public safety 
preparations, both in spirit and in practice, must align with the 
expressed direction of the residents we serve.
    One potential solution, taking all of these factors into account, 
is to increase Federal financial support for mutual aid compacts at the 
local and regional levels. These compacts can equip mobile response 
teams to respond to violent incidents in smaller neighboring 
communities, with the signed consent of those communities' elected 
civilian leaders. Southeastern Wisconsin has experienced success with 
such a model, in the form of a regional partnership called ``SMART''--
the Suburban Mutual Aid Response Team.
    There have been recent incidents where it is alleged that 
individuals in Wisconsin planned domestic terror attacks in another 
State. This highlights a capacity divide between the local intelligence 
assets in major urban areas with that needed in smaller rural 
jurisdictions. As shown in Oak Creek or recently in Washington DC, 
domestic terror does not spare the responding law enforcement officers 
from harm and any ability to detect and defuse such incidents before 
they occur must be supported.
    In addition, there should be a robust discussion about the 
appropriate and restrained use of hate crime laws at both the State and 
Federal level. Most State and local jurisdictions operate under State 
laws designed to address the substantive underlying offense. We rarely 
address the motive behind a harmful act, we instead focus on issues of 
intent, recklessness, and negligence. Our hate crime laws are often, as 
here in Wisconsin, ``enhancers'' to the underlying crime. Why someone 
does something can be relevant, but proving that they did it is our 
primary responsibility. Working closely with our partners in the United 
States Attorney's Office allows us to address the broader issues of 
unlawful motive. The time may have come that the respective States 
should create a framework for addressing hate crimes in a more 
comprehensive way, perhaps by authorizing State Attorney Generals to 
commence prosecutions related to violations of civil liberties based on 
the respective rights in each State constitution.
    In 1973 the late University of Wisconsin Law School Professors 
Frank Remington and Herman Goldstein, as part of the Berger Special 
Committee on Standards for the Administration of Criminal Justice, 
articulated the general principles that should guide urban policing 
stating:

``Those in the system must work together through liaison, cooperation, 
and constructive joint effort. This effort is vital to the effective 
operation of the police and the entire criminal justice system. To 
achieve optimum police effectiveness, the police should be recognized 
as having complex and multiple tasks to perform in addition to 
identifying and apprehending persons committing serious criminal 
offenses. Such other police tasks include protection of certain rights 
such as to speak and to assemble, participation either directly or in 
conjunction with other public and social agencies in the prevention of 
criminal and delinquent behavior, maintenance of order and control of 
pedestrian and vehicular traffic, resolution of conflict, and 
assistance to citizens in need such as the person who is mentally ill, 
the chronic alcoholic or the drug addict.'' (Emphasis added).

    This was written at a time of social unrest not wholly dissimilar 
to our own. Each generation faces its own unique challenges, but must 
endeavor to respond in a way that learns from both past failure and 
past success and allows future generations the right to expand upon and 
enrich this unique experiment in democracy by promoting respectful 
discourse and rejecting violence as a path for change. Thank you for 
inviting me to speak and I will provide any assistance requested as you 
work to address this issue of National importance.

    Chairwoman Slotkin. Great, thank you. I thank all the 
witnesses for your testimony. I know we are going to have lots 
of meaty questions for you. I will remind the subcommittee that 
we will each have 5 minutes to question the panel. For both our 
Members and our witnesses, there is a little screen that you 
should see that shows the clock and I will keep our Members to 
time so that we can efficiently make it through the questions. 
I will recognize myself to start for a 5-minute period.
    You know, I think it is important to understand for all 3 
of you, for the average American to understand what goes on 
when there is an incident that might qualify as something like 
domestic terrorism in your State. What is the process that you 
go through in determining who will charge that individual, 
whether it would be you or the Federal official? Kind-of walk 
us through maybe, AG Nessel, if you could start, the nuts and 
bolts, you know, if you want to speak to the specific plot 
against our Governor, how can the average American understand 
how we figure out how or prosecute these folks?
    Ms. Nessel. Well, first of all, I think that the best way 
to go about it and the way that we went about it in regards to 
the plot involving the Governor was to work in a task force 
that involved multiple layers and multiple levels. You know, 
and when we identified that there was this issue, to work 
together in consort with, you know, the FBI, the Michigan State 
Police, our office, and also the global authorities. So, you 
know, I think that working together works best for a variety of 
different reasons. But also, you know, the analysis data for us 
involved what laws were applicable to what kind of conduct.
    That is why you saw and as we talked about, we had more 
cases that were charged by us at the Department of Attorney 
General at the State level than we had Federally. A big part of 
that, of course, was because quite honestly, we did not have 
the Federal laws available in order to, I think, properly 
charge these individuals with the conduct of which they were 
accused.
    The thing that, I think, was most astonishing was the fact 
that had these individuals--and let me--I should interject 
that, of course, these individuals are presumed innocent until 
or unless found guilty beyond a reasonable doubt in a court of 
law--but that being the case, just from a sort-of a theoretical 
level as we are discussing this, had the plot been just to 
execute the Governor, the Federal authorities might not have 
had any charges at all. Had it not involved kidnapping, they 
would have been unable to charge her, and the State would have 
had to have taken each and every one of the applicable charges 
and defendants.
    But that being the case, in terms of having an 
understanding of the best way to handle it, I really do think 
it is important that you have all of these different entities 
working together. I think that not only does that resolve the 
issue of who has the best laws and the most applicable laws, 
but I think it keeps everybody else in check.
    As you likely know, you know, obviously, I am a State-wide 
elected official who is a Democrat. But I was working with 2 
U.S. attorneys that were Republican. Of course, then we had the 
FBI, of course, the director was a Trump appointee, and we had 
the Michigan State Police is overseen by our Democratic 
Governor. I say all this because I think it is just so 
important that we had those checks and balances in place to 
make certain that we didn't have any instances where anyone 
felt as though we overstepping our bounds or that these 
prosecutions in any way, shape, or form, were politicized.
    But I think that the most important thing is to ensure that 
you have a task force that is multi-leveled. Then honestly that 
it is properly resourced in addition to, as I stated earlier, 
of having the right laws in place so that we can appropriately 
investigate and prosecute any set of circumstances that 
involves harm to the public or harm to public officials or 
anyone in Government.
    Chairwoman Slotkin. Great. Go ahead, did someone want to 
speak? No? I now recognize Ranking Member Pfluger, the 
gentleman from Texas, for his 5 minutes of questions. Go ahead, 
Representative.
    Mr. Pfluger. Thank you Madam Chairwoman. I appreciate all 
the witnesses' testimony. Attorney General Ford, a question for 
you. What tools do you have at the State and local level to 
charge offenders when they do commit acts of domestic terrorism 
such as the 2017 Las Vegas incident or the 2012 incident at the 
Sikh temple?
    Mr. Ford. Thank you so much for the question, 
Representative Pfluger. Again, thank you so much Congresswoman 
Slotkin for having me here. Representative Pfluger, we have 
comparable to what Dana Nessel just talked about, the 
opportunity to coordinate among our State and local and Federal 
officials in instances like that. We have different 
jurisdictions, if you will, that the public doesn't recognize 
or even know about. So, the opportunity to discuss who has 
priority, who has the primary jurisdiction or issues like that 
is always an important conversation to have.
    So, we have State statues, for example, that we could have 
utilized if he survived to charge him with terrorism, for 
example. But the district attorney at the local level would 
have had potentially primary jurisdiction for other types of 
crimes that would have been committed or that could have been 
charged. Likewise, to the extent there were Federal laws that 
were implicated, the Federal agencies could have coordinated 
and figured out a way to charge him under Federal laws.
    What we have in southern Nevada is a fusion center. That is 
what we call it, a fusion center where all of us are able to 
talk among one another and to ascertain who is the best entity, 
which is the best entity to address which particular instances 
of concern that we have. That is in southern Nevada, but it is 
also in northern Nevada.
    So, in the incidents that you talk about in October 1, we 
were all activated. I wasn't attorney general at the time. I 
was actually in the State senate at the time, but I was also on 
the Homeland Security Committee in our State. I understood that 
there was a lot of coordination taking place to figure out what 
was going on because, again, we talk about lone wolves. We 
didn't know he was a lone wolf necessarily at the time. So, 
trying to figure out which resources were going to be 
marshalled in going to address this issue was a on-going 
conversation at that time.
    Mr. Pfluger. Well, thank you very much for that. My 
question on the joint terrorism task force and the fusion, I 
think both the Chairwoman and I share the, you know, the same 
thought that we want to understand the intelligence that is 
being passed down. Do you feel like your ability to get 
intelligence to work with the joint terrorism task force and 
the fusion center is effective? If not, what would you 
recommend as changes?
    Mr. Ford. I would say that we could always improve in our 
communications in that arena. The truth be told, communication 
and coordination could always be improved. We do have great 
relationships with our State, local, and Federal partners and 
the fusion center is a great opportunity to have those 
conversations. But I wouldn't be telling the truth if I were to 
say that we couldn't improve in that arena. Those 
communications lines are vitally important when it comes to 
being able to respond on the ground.
    Just yesterday, just yesterday, at the Government building 
in southern Nevada in Las Vegas, we had what we thought was a 
bomb threat. Just yesterday, where everybody in our building 
down in southern Nevada had to be evacuated. So, being able to 
coordinate and cooperate in that fusion center with information 
flowing back and forth was vitally important. We were able to, 
obviously, secure the scene and return everybody to the office. 
But, again, it was a test of cooperation, a test of 
coordination, a test of communication, and we look forward to 
always trying to improve those.
    Mr. Pfluger. Thank you very much. Again, to all the 
witnesses, thank you for your testimony today. I think it goes 
without saying we are committed to making sure that the 
resources are there to identify these threats before they 
become an issue. Madam Chairwoman, I do have some questions 
that I will submit for the record. But with that, I would like 
to thank all the witnesses again for being here and their 
commitment to keeping the country safe, and I yield back.
    Chairwoman Slotkin. Great, thank you, Representative 
Pfluger. Just to manage expectations, we will turn in a second 
to Representative Jackson Lee, then Representative Van Drew, 
Gottheimer, Meijer, and Malinowski, just to manage 
expectations. With that, I recognize Representative Jackson 
Lee, unless she has stepped away.
    Ms. Jackson Lee. Good afternoon. Good morning, rather. 
Thank you to the Chairman and Ranking Member for this important 
hearing. It complements the work that we are doing in Judiciary 
on the Crime, Terrorism, and Homeland Security Committee. I am 
delighted to be part of this committee and this focus this 
morning. Thank you to all the witnesses for your presentation. 
Let me--and your service because these are very trying and 
difficult times. Let me quickly start with Attorney General 
Nessel and refer to Michigan's Anti-terrorism Act that I 
believe was passed in the early 2000's, 2002. I would be eager 
to know the value of that particular statue as you attempted or 
worked to prosecute the perpetrators who attempted to harm a 
State official, a Government official, an official, in essence, 
of the United States serving the State of Michigan. How did 
that statute--how did you utilize that statue?
    Ms. Nessel. Well, the statute has been invaluable, quite 
honestly. I think it really speaks to the importance of it 
having been passed. When you say how did we utilize it. We have 
utilized this in a number of different circumstances. In fact, 
to follow up on something that AG Ford said, we have a case 
that is pending right now in terms of an individual that 
threatened to blow up our State capitol building, and we were 
able to utilize this particular act in order to charge him. 
Quite honestly, you know, there are aspects of this law that 
allow us to prosecute in a litany of different circumstances 
that but for this specific act, we either wouldn't be able to 
charge at all, or we would have to charge very, very minor 
offenses that I honestly don't think would be fitting for the 
specific conduct.
    Unfortunately, over the course of maybe just the last year, 
we had to charge this in a number of different circumstances, 
as we have had incidences of domestic terror rise 
exponentially. But, you know, as I indicated earlier, it fits 
so many different categories of criminal conduct, but it is not 
overly burdensome. It is not overly specific in a way that it 
hinders us. So----
    Ms. Jackson Lee. Thank you.
    Ms. Nessel [continuing]. You know, it is----
    Ms. Jackson Lee. Thank you.
    Ms. Nessel [continuing]. Particularly helpful and I 
recommend it at the Federal level.
    Ms. Jackson Lee. Well, in the course of recommending it, 
have you found in your tenure, the mis-prosecution of 
individuals who are simply civil rights protestors or Black 
Lives Matter? The disparate treatment between what would be 
militia with the intention to kidnap a Governor versus those 
who are simply protesting? Has that happened?
    Ms. Nessel. No. I haven't seen any incidences of that at 
all. If you look again at the law, it is pretty specific as to 
what it involves. But I have not seen it abused. I am not 
saying that there are no sets of circumstances under which that 
could potentially occur. But again, I think that goes back to 
why I think it is important to have these multi-layered task 
forces so that we don't see one particular office working alone 
where you might have intentions that are not----
    Ms. Jackson Lee. Thank you.
    Ms. Nessel [continuing]. Not always pure, so.
    Ms. Jackson Lee. Thank you.
    Ms. Nessel. But I feel it has been used well in our State.
    Ms. Jackson Lee. Thank you so very much. My time is short. 
General Ford, very quickly. Thank you all for your service. But 
let me pose to you as Las Vegas and Nevada has faced so many 
challenges. Thank you for your leadership. How do we balance 
having a terrorism initiative on the Federal level and making 
sure that the protection of those who are lawfully protesting, 
such as the contrast between the treatment of the 
insurrectionists on January 6 versus the over-arresting of the 
those in Washington, DC that were Black Lives Matter during the 
summer of 2020? General Ford?
    Mr. Ford. Yes, thank you so much, Congresswoman Sheila 
Jackson Lee. Great to see you again. Thank you so much for that 
question. It is an important one. The truth of the matter is we 
must always balance the rights of individuals with matters of 
security and safety. We cannot ban or bowl over the rights of a 
controversial rhetoric as terrorism and the United States has 
been quite able to prosecute specific conduct or language has 
been evident--as being evidence of intimidation or other 
malevolence. That has to be a real threat. I do have concerns 
about a bill that would not be narrowly tailored to separate 
and distinguish between what you have indicated as peaceful 
protestors, as opposed to those who are potentially engaging in 
terroristic acts. So, to the extent there is going to be 
consideration for a bill in that regard, we have to be 
conscious of that fact.
    Ms. Jackson Lee. Thank you.
    Mr. Ford. While General Nessel has indicated that we don't 
necessarily see that happening relative to her State, we could 
see it happening. At the end of the day, we want to be cautious 
about that and ensure that that doesn't occur. So, thank you so 
much.
    Chairwoman Slotkin. Thank you, Attorney General Ford.
    Ms. Jackson Lee. Thank you.
    Chairwoman Slotkin. I now yield to the gentleman from New 
Jersey, Mr. Van Drew. I don't think we are hearing you, Mr. Van 
Drew, unless that is just me. No.
    Mr. Van Drew. There you go. Now you can hear me.
    Chairwoman Slotkin. There we go. Yes, go ahead.
    Mr. Van Drew. Good deal, OK. Someday I will learn this. I 
thought I pressed the right button. Thank you, Chairwoman, for 
having this meeting and thank you, Ranking Member, as well. I 
am going to make this a little personal. I am curious what all 
3 individuals who are testifying think of this. So, on February 
28, at my home, I received a voice mail, actually, my wife did. 
The voice mail said--this individual said--and this happens 
unfortunately to people in Congress. But I will do everything 
in my power to ensure that you are deposed, if not dead. 
Anything I can do to get you basically out of office. You are a 
traitor, Jeff Van Drew, and you deserve the fate of all 
traitors. He goes on to say in written that we have before me, 
he goes on to say, should we--and he speaks about my wife--
should we test the acceptability and get the direct response of 
a prominent GOP female by greeting Van Drew's wife with a 
Republican high-five, putting our hands between her legs, 
lifting her over the hood of her car, and objectively recording 
her physical reaction to the tickle when she lands. He then 
writes, as a traitor, Van Drew has forfeited his right to 
protection under law. Know this Jeff Van Drew, it doesn't stop 
here. God save you.
    He then goes on to say, this is treason. The penalty for 
treason is execution. This applies to the great and to the 
small. He goes on after that to say, should conscientious 
critics take a cue from the armed rioters? Storm his house, 
smash everything, violate his family, and walk away laughing. 
Would that be silly? Then, finally, and he says a lot of other 
things, but I won't go into them. We are forced to ponder 
Thomas Jefferson's grim directive that for the good of our 
Nation, the tree of liberty must be refreshed with the blood of 
tolerance and traitors.
    He is very angry. As many people know, I am a Republican 
and I used to be a Democrat, which is things that happen in 
life. What is unusual about this--and I just think everybody 
would be interested in it, he is a freelance reporter. He 
writes for a newspaper called the Ocean City Sentinel. That, 
everything I read to you, except the original death threat, was 
actually in the paper as a op-ed, an opinion editorial. Not 
just a letter to the editor, but opinion editorial.
    So, of course, we were involved with the police and others 
and are looking into this. But I would be curious, I mean, that 
was very chilling for my wife. I accept that and all of us who 
are in Congress accept the fact that we are going to go through 
things like this. It is not acceptable. The bar has been 
lowered recently. But what I ask is this. Is that acceptable or 
is that a form of terrorism to, you know, say literally threat 
your family, your children, your grandchildren, your wife, and 
to say that you are going to sexually assault her? Is that--and 
then you are, of course, going to kill me. All the political 
speak about tolerance. Is that acceptable? Is that something? 
Because evidently it is not from what I understand from 
attorneys. I wanted your thoughts on it. Whoever wants to 
start.
    Ms. Nessel. Representative, I would be happy to start 
because I have actually prosecuted a number of cases in our 
State that are similar to what you just suggested. Now, any 
constituent, anyone at all is free to disagree with your 
policies or your vote. They, you know, they can let you know 
that they don't approve of the way that you conduct yourself in 
office. But what they cannot do is threaten you or your family 
with physical harm or death. Whether you do that to your 
neighbor that lives next door or whether you do it to an 
elected official, it is illegal.
    So, in our State, what I have been doing is we have a 
particular statute that involves using an electronic device to, 
you know, in order to threaten an individual. So, whether that 
is by telephone or, you know, text message, if you post it on 
social media, or it is an email, that is a crime. I charge it 
over and over again involving a number of public officials. All 
the way from, you know, President Biden to Representative 
Slotkin to a judge that is on our court of claims to a 
Republican member of our State house.
    So, we have been very aggressive in terms of making sure 
that people understand the difference between what is 
acceptable First Amendment-protected activity and what is a 
crime. The sorts of threats that you and your family received 
in my opinion, that is criminal conduct. It is illegal and if 
you were in my State, I would prosecute it.
    Mr. Ford. Mr. Van Drew, if I could.
    Chairwoman Slotkin. I am so sorry, we are going to have to 
leave it at that. We have a strict rule of 5 minutes here. I 
apologize.
    Mr. Van Drew. Thank you for your information.
    Chairwoman Slotkin. Thank you. The Chair recognizes the 
other gentleman from New Jersey, Mr. Gottheimer, if he is 
available. Oh, I am sorry. Now, that I see that Mr. Langevin is 
jumping on. Mr. Langevin, we yield to you for your 5 minutes.
    Mr. Langevin. Thank you, Madam Chair. I want to thank our 
witnesses for their testimony today. Let me start if I could 
with Mr. Ford. Mr. Ford, and I apologize if this has already 
been covered, but the Homeland Security Threat Assessment 
specifically notes that White Supremacist extremists are 
engaged in outreach networking opportunities abroad. What is 
the process for notifying and working with Federal law 
enforcement if someone you know or suspect to be a White 
Supremacist extremist seeks out connections abroad?
    Mr. Ford. Thank you so much for your question, sir. Aaron 
Ford, for the record. You know, what I indicated in a couple of 
responses ago was that the public doesn't really recognize or 
know about our different jurisdictions, for example. So, we 
operate under what we call 5Cs in my office. One of those Cs is 
community outreach and community engagement. So, and client 
services. When we receive a complaint, if it is not within our 
jurisdiction, we can relay that to the appropriate entities. We 
utilize the fusion center for communications of that sort. So, 
the bottom line is if there is ever a concern, if you ``see 
something, you should say something'' you could always reach 
out to my office and we will find out where that type of 
information needs to be directed to.
    Mr. Langevin. How do you think international coordination 
changed the threat posed by these groups?
    Mr. Ford. I missed the first part of the question. How do 
I----
    Mr. Langevin. How does international coordination, how do 
you think it changes the threat posed by these groups?
    Mr. Ford. Well, I do think that it presents a unique 
problem. You know, at the Federal level, terrorism is defined a 
lot less broadly, if you will. So, internationally, we are able 
to utilize a definition of terrorism that is different than 
what we use from a domestic terrorism perspective. So, the 
Joint Terrorism Task Force is limited in that regard and can 
oftentimes present problems and issues and road blocks for us 
being able to address those issues. But again, through a 
communication through, for example, the fusion center and other 
joint task forces, we are able to have those communications and 
ascertain which entities are the right ones to address 
particular issues.
    Mr. Langevin. OK, and let me just say this. You know, I 
applaud your efforts as law enforcement officers, you know, the 
second-best way to prevent crime is from maintaining law and 
order and, obviously, to catch and prosecute criminals. But the 
best way is to prevent crime from ever happening in the first 
place. So, I would like to focus on the root causes and 
solutions that domestic extremism that leads to criminal acts 
and outright terrorism.
    So, Mr. Ford, in your written statement, you rightly 
emphasize community engagement to build the social and cultural 
bond that unite us and resolve divisions that stem from 
unwarranted fears and apprehensions about fellow Americans. So, 
I have 2 questions for you. First of all, what works? How do 
you rigorously measure whether community efforts are working? 
What are the barriers to doing more of what works best?
    Mr. Ford. Yes, I mean, I think at the end of the day, as 
you have indicated, that coordination and cooperation is very 
important and, you know, there are probably several responses 
to that, some of which are best practices, others of which are 
hit-and-miss. I think the actual effort of engaging in the 
communities and having conversations with folks and trying to 
improve relationships between law enforcement and the 
communities that they serve oftentimes can lead to us being 
able to address domestic terrorism to the extent that we are 
able to learn about it, right? Through those conversations and 
through those communications.
    We have seen, for example, instances where individuals have 
been seen walking through neighborhoods with AR-15s and then 
subsequently months later ultimately prosecuted because they 
were, in fact, a domestic terrorist attempting to do something 
bad on our strip. That has happened. So, that comes through 
community coordination, cooperation, and communication. I think 
that that is part and parcel with--that is part and parcel to 
addressing this problem.
    Mr. Langevin. Very good. With the little bit of time I have 
left, Mr. Chisholm, what are the enablers and barriers to 
defusing extremists and violent tendencies in your State or 
county? What authorities, resources, constraints, and 
requirements are most helpful or harmful? What do you need more 
of or less of?
    Chairwoman Slotkin. Very briefly, please.
    Mr. Chisholm. Thank you very much for the question, Mr. 
Representative. We actually have benefited tremendously from a 
close relationship with the U.S. Attorney's Office and the 
Federal Government providing us resources to enact programs 
like community-based prosecution where we actually take 
experienced people from our office, place them in 
neighborhoods, and develop a different type of relationship. 
Also, focusing on victims of crime and addressing the trauma 
issues is in my view, absolutely critical. In other words, when 
we respond to massive events like this, it is really my office 
that has the personnel and experience to deal with the 
immediate effects of the trauma that those individuals and 
their families that have now been exposed to violence and we do 
need more resources to be able to address those issues. With 
the view of preventing----
    Chairwoman Slotkin. We are going to have to leave it there. 
I apologize, sir. We are going to have to leave it there. The 
Chair now recognizes the gentleman from Michigan, Mr. Meijer.
    Mr. Meijer. Thank you, Madam Chair. Thank you Ranking 
Member and thank you all of the other witnesses who have joined 
us here today here. You know, at our first full committee 
hearing as Representative Slotkin mentioned, we met with not 
only the threat of domestic terrorism following the events of 
January 6 and the questions I asked for mainly how we can shift 
away from the reactive approach that I think we have all too 
often seen especially when grappling with magnitude of the 
issue and then how we can be a bit more targeted on the front 
end so that we are addressing some of those underlying levers.
    You know, and instead of just constantly creating new 
agencies, offices, programs, you know, how can we better use 
existing capabilities in order ensure that we are instituting 
reforms that target threats appropriately while measuring the 
effectiveness of those relative approaches? So, that was one of 
the reasons why this week I joined a colleague on this panel, 
Mr. Malinowski, in calling for additional funding for DHS's 
Office of Targeted Violence and Terrorism Prevention or TVTP, 
and its corresponding grant program. So, that office provides 
technical, financial, and educational assistance to 
stakeholders to establish and expand local prevention networks, 
help the Department combat all forms of violence regardless of 
ideological motivation, but specifically, to award funds on a 
competitive basis to States, local, Tribal, and territorial 
governments, nonprofits, and institutions of higher education 
to establish sustainable prevention capabilities.
    The word that I think I never want us to forget because it 
is the way that we avoid that is just becoming a defensive 
partisan exercise is the violence. Now, the word extremism gets 
thrown around a lot but, you know, where our focus and where 
our issue is when that violent nexus, when that violent act is 
in the process or is planning to occur, and as Representative 
Slotkin has mentioned, that is something we saw in our home 
State of Michigan. It is something that we experienced during 
the assault on the Capitol itself. It is where the First 
Amendment protections, you know, fall away because that has 
entered into a criminal act, a criminal behavior, and how can 
we ensure that we are appropriately mitigating while have the 
corresponding respect for civil rights and civil liberties.
    So, on that note, Attorney General Nessel--and I want to 
ask about your experiences with these challenges in our home 
State of Michigan. Obviously, you mentioned the Wolverine 
Watchmen. We have talked about some of those specific threats 
and a legacy that goes back, you know, over 30 years. But do 
you feel the role of DHS in the Federal Government in 
combatting these kinds of violence, how have you found that 
cooperation to be to date? I know you touched upon fusion 
cells--or excuse me--fusion centers in a prior question, but 
just wanted to get your broad approach on how you feel that 
Federal cooperation has been so far?
    Ms. Nessel. You know, certainly I think we had great 
cooperation as it pertained to that particular set of 
circumstances and that we worked very well together at that 
juncture. Like AG Ford, I will tell you that is not always the 
case. Being someone who before I came to State government, I 
worked for a county prosecutor's office. The Wayne County 
prosecutor's officer. We often had a lot of complaints about 
the coordination between the county level and the State level 
and then the State level and the Federal level. So, we can 
always do better when it comes to that.
    Now, in terms of the DHS Targeted Violence and Terrorism 
Prevention grants, let me say this. You know, that money as you 
know is for prevention, not for prosecution. So, from my 
perspective, you know, what is needed to support the Michigan 
State police and my office and for MSP, intelligence sharing 
really between local police and MSP is really the greatest 
reset I think. Now, of course, MSP has fusion centers, but 
outreach and education to local law enforcement is badly needed 
to make an identified intelligence that really should be shared 
and, you know, sometimes the locals fail to properly assess and 
identify risk factors like individual behavior of local 
extremists at the early stages so that it can be passed up so 
that we can evaluate whether this is a person who is truly 
inherently dangerous. Now, for----
    Mr. Meijer. I am just going claim back a minute of my time 
and I am running short but I just wanted to clarify. I get the 
sense from speaking with local law enforcement and interstate 
partners that they feel it is a one-way information flow, that 
they are feeding information up but not necessarily having that 
be reciprocated by the Federal Government?
    Ms. Nessel. You know, I do sometimes get that from them. 
But I will say this, that lack of information flow goes both 
ways. I have had several circumstances where we have cases that 
we will get it when it gets to a certain level and we will find 
out later on that there were indicators that an individual was 
dangerous and had aberrant behavior that one would think would 
lead to something more dangerous later, but we just never found 
out about it because nobody passed it up to us. Had we known 
about it to begin with, we could have prosecuted something 
perhaps, you know, even a lower-level misdemeanor, but it would 
have put this person, you know, under the guidance of the court 
so that whether it is a mental health-related issue or some 
other issue, that could be addressed before it turned into 
something much more dangerous. So, at all levels I think we are 
failing to some extent.
    Mr. Meijer. Thank you, Madam Chair, I yield back.
    Chairwoman Slotkin. Thank you. I appreciate it. The Chair 
recognizes the Member from New Jersey, Mr. Malinowski.
    Mr. Malinowski. Thank you so much, Madam Chair, and thanks 
to the witnesses. I have unfortunately I have been in and out 
so I may have missed a couple of the questions and answers. But 
I did want to make sure that I understood as best I can the 
witnesses' advice and recommendations on the DHS Targeted 
Violence Prevention Grants. So, I wanted to ask whether you 
have all had specific experience with the program over the last 
3 years. It was, you know, it was in operation and then 
virtually shut down in 2017. We started last year. We are 
looking potentially at a significant increase in funding. So, I 
am wondering if the 3 of you can share experiences with what 
has worked and what hasn't in the past in that program. I am 
sorry if that is repetitive of something I missed.
    Mr. Ford. Well, this is Aaron Ford, for the record. I am 
not certain that I could speak specifically to that program, 
but what I can say, sir, is that Federal funding is critical to 
the State's ability to respond to and to recover from mass 
violence or domestic terrorism events. The way an incident is 
defined in law has an impact on how our response and recovery 
can be funded. In fact, after October 1, 2017, the Nevada 
Department of Health and Human Services received a grant from 
the U.S. Department of Justice Anti-Terrorism Emergency 
Assistance Program, which is utilized for law enforcement 
overtime needed to respond to that event, as well as mental 
health treatment for October 1 survivors.
    You know, it is unclear whether Nevada will qualify for 
funding under the Stafford Disaster Relief and the Emergency 
Assistance Act because that definition of major disaster is 
restrictive and so, you know, looking at these forms of 
definitions and programs, I think, is an important component to 
discussing actual responses to domestic terroristic and 
domestic violence events or domestic extremism events.
    Ms. Nessel. May I----
    Mr. Malinowski. OK, does anybody else want to chime in? 
Yes.
    Ms. Nessel. I think it is an important question and for the 
purposes of my department, I will say first of all we just 
haven't had a lot of contact at all in regard to these grants. 
But what we need at our department, quite honestly, is we need 
resources that go directly to the Michigan Department of 
Attorney General. We need money for analysts. We need money for 
investigators and we need money for additional prosecutors.
    I will be honest with you, we were getting so many threats 
we ended up partnering with a college. At Ferris State 
University they have a cybersecurity program. We are actually 
having to work with undergraduate students right now to help us 
track threats. We have an MLU with them that just put together 
partially because we don't have the funding available to do 
this on our own. We have so few investigators in our office 
that are not on specific funding tracks that would not even 
allow them to do this kind of work even if we could reassign 
them. We are not permitted to by law. So, we need help. We need 
finances. For us to be able to do our job, we just need more in 
the way of funding because the problem is greater than ever and 
it is going to involve more resources than ever.
    Mr. Malinowski. Understood. Just shifting the subject in my 
remaining time, one of the issues that I have been really 
focused is the role that social media platforms and their 
algorithms play in connecting vulnerable, susceptible 
individuals to extremist groups and making that initial 
connection. There was a really fascinating case, actually, in 
Michigan that I read about recently in the local press in 
Michigan about an FBI--a guy who turned out to be an FBI 
informant having joined the Wolverine militia. He said in an 
interview that he joined the group because it was recommended 
to him by Facebook. He had been scrolling through pro-gun 
pages, basically, Second Amendment pages, and they recommended 
he join it.
    I guess here is the way I would pose it to you, Attorney 
General, imagine you heard that somebody in your State was 
doing that, just looking at gun rights pages. The next day a 
Facebook executive called him on the phone to say, hey, you 
know, couldn't help but notice that you were interested in the 
Second Amendment, and we have got this really, really, 
wonderful, neat organization we think you might be interested 
in. So, we want to send you their phone number and email 
address and contact info so that you can have a meaningful 
experience with the Wolverine militia. Would you feel that 
Facebook was at least morally responsible for the consequences 
of that kind of action?
    Chairwoman Slotkin. Very, very briefly, 15 seconds.
    Ms. Nessel. Yes.
    Mr. Malinowski. Good enough. Thank you so much. I yield 
back.
    Chairwoman Slotkin. Thank you, Attorney General Nessel, for 
being so concise. The Chair now recognizes Representative 
Green. Representative Green over to you. You are recognized for 
5 minutes.
    Mr. Green. Thank you very much, Madam Chair. I greatly 
appreciate this extension of this opportunity. I am an 
interloper and an interloper who did not register himself 
properly. So, I do humbly apologize to you and appreciate your 
graciousness. My question will be a very simple one for anyone 
who would like to help me. I plan to visit the border in El 
Paso this weekend. My concerns are many, but I would like to 
know from the point of view of people who are on the ground 
there, what should I look for? What is important for me to see 
and to understand so that I may better negotiate legislation in 
the Congress? Whichever person would like to be first to 
answer, I will be more than honored to hear your response.
    Chairwoman Slotkin. Why don't we start with 
Representative--or Mr. Chisholm, then Mr. Ford, then Ms. 
Nessel.
    Mr. Chisholm. Thank you, Representative Green. Having spent 
some time on the border, I would just strongly encourage you to 
work both with the individuals who are operating those 
facilities, but I would also encourage speaking to the informal 
and support networks that have to provide an enormous amount of 
support to the individuals at the respective centers. I think 
that it is, again, an issue of critical importance on how we 
address this problem and do so in an urgent fashion, but also, 
make sure that we do it in a way that reflects the highest 
values of our country.
    Mr. Green. Thank you.
    Mr. Ford. Thank you. Aaron Ford, for the record. Not much 
more that I can add, frankly, to that response. I would simply 
say, however, that you describe what you see, and ensure that 
the country understands the difference and the distinction that 
are available to us. Not everything happening at the border--or 
some things happening at the border should not be classified as 
prospects for domestic terrorism. At the end of the day, being 
able to acknowledge that to say it out loud, to call out lies 
when there are occurring is critically important in this 
conversation as well. So, I would offer that for consideration 
and tender the mike.
    Mr. Green. Thank you.
    Ms. Nessel. I agree with my colleagues. I don't have 
anything additional to add except for that I have never been to 
El Paso, but I hear wonderful things about it.
    Mr. Green. Thank you. Madam Chair, if there are no 
additional comments, I will yield back the time. Again, express 
my gratitude to you for your graciousness. Thank you.
    Chairwoman Slotkin. Of course. Of course. OK, the Chair 
recognizes the gentleman from New Jersey. We are a little New 
Jersey-heavy here in this committee. We are working on it, I 
assure you. We are doing everything we can to mitigate. With 
that, I recognize Representative Gottheimer.
    Mr. Gottheimer. Thank you so much, Chairwoman Slotkin. You 
can never be Jersey-heavy enough. So, we will recruit more 
Jersey to the committee. I appreciate you recognizing me and 
for organizing this very important hearing and thanks to each 
of the witnesses for being here and for the work you do to help 
counter this serious threat.
    I also want to take a moment to acknowledge one of the 
tragic, senseless attacks on our fellow citizens in recent 
days, including last week's mass shooting in Atlanta, in which 
8 people were killed, including 6 Asian women against a 
backdrop of rising hate targeting the Asian-American and 
Pacific Islander community in recent months and years. We also 
grieve for the victims of another attack just this Monday, as 
you know, in Colorado that tragically took 10 lives, including 
an officer with the Boulder Police Department. We must do 
everything we can to better protect all Americans from such 
horrific violence.
    As you know, the Proud Boys, the despicable group which I 
have called on our Government to consider designating as 
terrorists, are being charged with conspiracy for their role in 
the January 6 attack on the United States Capitol. The Justice 
Department is also set to be considering sedition charges 
against members of the Oath Keepers, another dangerous militia 
group, which was heavily involved in the attack on the Capitol. 
While I welcome these charges, I am concerned that it has been 
very difficult to win convictions for these charges in the 
past, and a message that might be sent to would-be extremists 
in all of our States.
    Attorney General Nessel and Attorney General Ford, if I can 
start with you with Attorney General Nessel first, in general, 
do you believe the legal tools currently available to Federal, 
State, and local enforcement agencies are strong enough to 
deter potential extremists from engaging in domestic terror? 
Attorney General Nessel.
    Ms. Nessel. Sorry, can you hear me now?
    Mr. Gottheimer. Yes, thank you.
    Ms. Nessel. Great. So, we are fortunate in Michigan as I 
have indicated, that we do have some very strong laws in place 
that allow us to tackle organizations like the Proud Boys. So, 
for instance, you know, we have gang-related statutes that have 
been in place for many, many years. In Michigan, for instance, 
you know, criteria to be considered a gang so that we can in 
the event that we are charging that a gang provides the motive, 
means, or opportunity to commit whatever the underlying felony 
is, our criteria is 5 or more people, not a non-profit 
organization, a common name, sign, or symbol, leadership 
structure, and defined membership criteria. So, those are the 
types of things that we have been able to do to go after a 
group such as the Proud Boys. We did that, in fact, in another 
case involving the white supremacy group called the Base, in a 
case that we charged here in the last few months.
    So, we do have these types of statues in place. They have 
worked for years and, you know, traditionally, they have been 
used against street gangs and these have been the kinds of laws 
that have been upheld on First Amendment-related challenges.
    Do you need to have something similar to this at the 
Federal level? I would indicate I believe so. I would submit 
that I think that it is important and that it is a useful tool. 
It is a tool that you don't currently have. So, I think that 
along with--and I would suggest to you a proposed piece of 
legislation from 2019 by your colleague Adam Schiff, 
Confronting the Threat of Domestic Terrorism Act, would 
probably be a good place to start.
    Mr. Gottheimer. Thank you. Attorney General Ford, what sort 
of message do you think it would send if individuals involved 
in attacks like on January 6 were to get off the hook?
    Mr. Ford. Thank you so much, Representative Gottheimer. 
Aaron Ford, for the record. I think the message would be clear 
that it is condoned. It has no repercussion. There is no 
consequence. At the end of the day, what we want to do is 
ensure that, in fact, these actions do have consequences and 
that we will not kowtow to the extremism that we have seen 
taking place over the course of these last few months 
especially in what we saw on January 6.
    I think it is important as General Nessel has indicated, to 
ensure that we have strong laws and we have done comparably 
here in Nevada. We have been nimble in our approach to 
sovereign citizens and ensuring that we have the actual tools 
in our State legislation to address those types of unique 
approaches that they have taken to domestic terrorism. I think 
at the end of the day, what we need to be doing at the Federal 
level through your actions and otherwise is the ensure that 
those who engage in these actions know that there are 
absolutely consequences and those consequences will be dire.
    Mr. Gottheimer. Thank you very much. In my home State of 
New Jersey, our Regional Operations and Intelligence Center is 
tasked to being an intelligence and information sharing conduit 
between the Federal Government and the State and local 
enforcement and public safety. I guess I will ask Attorney 
General Chisholm, based on your experience with your State 
fusion centers, how can DHS and its intelligence arm better 
support investigative work that you, your prosecutors, and law 
enforcement partners do?
    Mr. Chisholm. Thank you very much, Representative. I would 
say that we do a very good job of acting upon tactical 
information, things that are actually unfolding. I am sorry--
yes. We do a good job of acting on tactical information. I 
think that sort of the strategic information level is where 
there tends to be a little bit of a breakdown. Then that is 
where it does tend to become a one-way street. Information 
flows up and rarely flows back down. I would--I believe that by 
expanding the capacity both at the sort-of the major urban 
centers and also expanding it into the rural areas, it would 
facilitate that communication better.
    Chairwoman Slotkin. Thank you, Congressman Gottheimer.
    Mr. Gottheimer. I yield back, thank you.
    Chairwoman Slotkin. We are going to start a very brief 
second round for those who are still on for our witnesses. I 
promise to have you out of here by no later than 11:30 Eastern 
Standard Time for the 2-hour mark. I will recognize myself just 
for a brief moment.
    You know, I guess I would like to go back to the question 
that I think Representative Jackson Lee was getting at in her 
questioning. Whenever we bring up the topic in this committee 
of additional Federal domestic terrorism law, there are a raft 
of letters and concerns that come in from civil rights and 
civil liberties organizations, and, frankly, on both ends of 
the political spectrum. I have heard folks from the 
conservative world say it is going to infringe on their First 
Amendment rights. I hear people from civil rights organizations 
saying it is just a hop, skip, and a jump until a Federal 
domestic terrorism law is going to be targeted at Black and 
Brown people, at activists.
    So, help me understand. Maybe we can start with AG Ford, 
help me understand how taking some of the legislation that you 
have on the books in your State and bringing it to the Federal 
level help alleviate those concerns if this is something that 
you are saying we should prudently and carefully look at. How 
do we mitigate those concerns if, indeed, this is something 
that you think would be useful as a law enforcement officer?
    Mr. Ford. Well, thank you so much for that question. It is 
a very real concern and it is appropriate that you have these 
conversations. As a Black man, frankly, I look for the 
opportunities to bring this to the forefront. Listen, we have 
to consider implicit and explicit biases throughout the 
criminal justice system. That they penalize violent extremists 
from one race or ethnicity less harshly and less frequently 
than those belonging to an immigrant or minority group. Equally 
important is the need to safeguard or insulate prosecutorial 
discretion from the political processes or from those in power 
who seek to punish political rivals.
    So, I mean, for example, you know, it seems strange that 
the Oklahoma City bomber wasn't charged with terrorism. But I 
think most folks would look at that instance and say that if 
you were to switch out ethnicity, we would have a different 
conversation going on. That is a very real conversation. It is 
a very real concern. It is a very real issue that arises in 
communities of color in the minority communities around the 
country. It is one that I am glad to hear Congress is at least 
talking about. So, kudos to you for bringing that up as the 
Chairwoman and kudos to assemblywoman Sheila Jackson--pardon 
me--Representative Sheila Jackson Lee for bringing it out to 
the forefront as well.
    Chairwoman Slotkin. Yes, and let me shift gears in my 
remaining time. Attorney General Nessel, you know, I am 
interested in this idea that Canada has designated the Proud 
Boys as a terrorist organization. Obviously, anyone from 
Michigan knows we spend a lot of time separate from COVID going 
to concerts and going to meals and, you know, visiting family 
and property over in Canada. What, if any, conversations have 
you had with your Canadian colleagues? What does it mean if a 
member of the Proud Boys in Michigan decides that they want to 
go to Windsor for a concert? Is there any discussion, legal 
discussion, going on on the implications of that designation by 
the Canadian government?
    Ms. Nessel. So, honestly, I haven't had these conversations 
with the Canadian government. Obviously, as we know, there are 
a litany of things that are legal in the State of Michigan and 
as soon as you start to cross over, they won't allow you in. 
Even for a drunk driving conviction, you cannot be admitted 
into the State--sorry--admitted to Canada if you have a drunk 
driving conviction. So, you know, I imagine that there are 
repercussions in the event that we have individuals that 
identify with these groups that cross the border. But I don't 
know exactly what those are. Have I seen examples of that?
    If I can just very quickly go back to something you said. 
If States are truly responsible for, you know, prevention and 
you can model the Federal law with the Federal Government after 
State law, I would just indicate I understand all these 
concerns that people are indicating in terms of civil 
liberties-related issues. I just, again, want to point to the 
fact that we have all these laws on the books in terms of gang 
affiliation, in terms of domestic terrorism in Michigan. We 
have a very diverse State. That is why I am always arguing that 
we should have our primary start with Michigan instead of Iowa 
or New Hampshire because we are such a diverse State that is 
more reflective of the United States of American than many 
other States are. We simply haven't seen that in the State of 
Michigan. We have not seen, you know, egregious violations of 
people's civil liberties being Constitutional right. So, I am 
not saying that it is not an important concern. I am just 
saying in our State, we already have all these laws. They have 
been on the books for decades. We haven't had that situation.
    Chairwoman Slotkin. Thank you, Attorney General. I will 
turn to my fellow colleague from Michigan. We have a little of 
a Michigan mafia here. Mr. Meijer, please go ahead.
    Mr. Meijer. Thank you, Madam Chair. I strongly support 
Michigan being first in the Nation as well on that primary 
system. You know, I just I guess I want to circle back to a 
couple of comments that were made earlier. One, by Attorney 
General Nessel on, you know, talking about how if there had 
been more information sharing, there could have been that 
ability to route somebody who may have been heading toward a 
violent outcome. Then have them be able to seek the mental--or 
get them directed to the mental health treatment they might 
need. Then also Attorney General Ford, you know, I can't help 
but think of the Las Vegas shooter and how the unknown motives 
in that case are almost more disquieting than if it oh, well, 
here we have a nexus to one extremist group of men or kind of 
violent ideology or another.
    It would be, I think, we have seen in the past week with 
the shootings, the mass shootings in both Atlanta and Boulder, 
obviously, we are still learning more about the tragic events 
in Boulder and what motivations may have been there. But this 
need on behalf of the public writ large in order to ascertain 
what that motive is in order to kind-of fit into a preexisting 
understanding.
    I can't help but find a relation between that and how so 
many of our domestic terrorism and international terrorism 
focus is on a group rather than, you know, realizing that group 
is comprised of a number of individuals. I have seen this 
personally, you know, through my, you know, political 
experience to date those--that moment in which a, you know, 
legitimately held in First Amendment-protected political belief 
starts to devolve into essentially a pathology, a creation of 
an alternate reality, and then one that inherently justifies 
violence.
    I received a text the evening of the January 6 from 
somebody who said--called me a traitor for not voting to 
decertify or object to the electoral college process. In the 
process said, you know, the real patriots were those who 
stormed the building. Now, how somebody gets to that 
understanding and, again, that understanding is not in and of 
itself, you know, a violent act, but, you know, lays the 
groundwork, you know, creates the fertile conditions in order 
to have the justification for that violence that would 
otherwise, you know, be reprehensible. Or that a reasonable 
individual would rightly view as reprehensible.
    So, I guess, Attorney General Nessel, could you expound a 
little bit more, you know, on that notion of the dichotomy 
between if we can have a group affiliation, it is a lot easier 
then to preempt violence, the Wolverine Watchmen being an 
example, you know, versus the challenge when that same impetus, 
you know, is living at the individual level and you cannot have 
a confidential source in that network. You are minimized in the 
ways in which that type of violence can be preempted.
    Ms. Nessel. Well, Representative Meijer, let me say this. 
First, we sort-of view that already at the individual level. As 
I know that you are aware, in Michigan we have something called 
the Ethic Intimidation Act. What it does is it allows us to 
take what is ordinarily a low-severity assaultive crime or a 
malicious destruction of property crime, and if it is a biased-
oriented crime, we can enhance it from a misdemeanor to a 
felony. Why do we do that? Because we know that when you make a 
threat against someone based on their heritage, based on their 
national origin, based on their race, that it is not just a 
threat to them personally, it is often a threat to an entire 
community. We also know that the mass shootings that you might 
see at a synagogue or at an Asian spa or what have you, 
normally they start off as something much smaller, a threat or 
a minor assault or a minor type of property damage. But if you 
can elevate it immediately because of that racial component, or 
because of the bias-oriented component, you can often stave off 
a much more serious crime later on. So, we do that with 
individuals already in Michigan.
    But in terms of designating a group of people as a hate 
group, I think is really impactful because you know that if you 
have a mission statement from a group and that is an anti-
Government or extremist mission that say seeks to overthrow the 
Government, I think it is helpful that in terms of just 
alerting people's attention and law enforcement's attention as 
to who those individuals are and to be, you know, concerned 
about their activities, maybe and be watchful of them, by, you 
know, I think it is impactful in terms of later prosecutions as 
well and holding people accountable when those activities turn 
toward the planning or the execution of violent crimes.
    Chairwoman Slotkin. We are going to have to----
    Mr. Meijer. Thank you, Madam Chair. I yield back.
    Chairwoman Slotkin. Thank you. Thank you, Mr. Meijer. We 
will have to leave it at that. For our final question of our 
hearing today, I yield to the gentlewoman from Texas, 
Representative Jackson Lee.
    Ms. Jackson Lee. Madam Chair, thank you so very much. Let 
me join my colleague from New Jersey in acknowledging that 8 
people are dead in Atlanta and 10 are dead in the great city of 
Boulder, and that we offer our deepest sympathy for the pain. 
As many of you have faced that in Wisconsin and Michigan and, 
of course, Nevada, I think the meeting--the hearing today must 
be focused on the reality that whenever the Federal Government 
speaks, it is the heavy hand. It is the statement of this 
Nation.
    I was on the campus when 9/11 occurred. I saw the building 
smoke from the Pentagon and heard the cries and claims that 
they were coming toward the Capitol, the White House, and the 
State Department. That kind of terrorism is something that 
broke America's naivete even though we had already experienced 
Timothy McVeigh in Oklahoma.
    So, terrorism is something that is dark, it is devastating, 
and for us to be able to find a way to put a stop sign and to 
give you the tools to do so is important. But at the same time, 
we know what happened to the Black Panthers, the new Black 
Panthers, Black Lives Matter. I think it is very important to 
make that point here today.
    So, let me start and I will give the question for all 3 to 
answer starting with the district attorney. I did not get a 
chance, Mr. Chisholm, to ask you a question. Thank you so very 
much for that. But would you give me what the dominant 
description of those attacking the Government today are in 
terms of intelligence, in terms of what you see in your 
community, and the one tool, the most important tool, that you 
would need. District Attorney Chisholm, then General Ford, and 
then General Nessel if you would answer those questions. Thank 
you so very much. District Attorney Chisholm.
    Mr. Chisholm. Thank you very much Representative. The 
predominant profile of a person is somebody that is deeply 
disaffected and has lost faith in the Government and believes 
that they are entitled to take action on their own. That is 
what poses the greatest risk. Again, I would--I believe that 
what has been most effective is when we work together very 
closely and we have the proper restraints in place by having, 
for example, prosecutors both at the local, State, and Federal 
level screening information and make sure it is not used 
inappropriately against people who are simply exercising their 
Constitutional rights. My experience is that it has been done 
appropriately.
    Ms. Jackson Lee. Thank you so much. General Ford, in terms 
of whether you have been seeing White racism as a dominant 
force. General Ford.
    Mr. Ford. Yes, ma'am. I mean, the short answer is 
absolutely. I mean, and we have to acknowledge that. So, thank 
you for asking the question so that we can acknowledge that. To 
address these issues, I think, I would say 3 things. First of 
all, funding is very important. We have talked about that. 
Funding from the Federal Government could be very helpful. 
Second, increasing joint agency cooperation can assist our 
investigatory and prosecutorial efforts between agencies. I 
think that is important. Then third, just figuring out an 
examination of Federal law and how people are actually being 
radicalized and the proliferation of terrorism is playing into 
all of this, especially on the internet. You know, I won't go 
so far as my colleague and say that all the blame lies on the 
internet, but I will say that a lot of the radicalization is 
taking place on the internet. So, we should look at ways in 
which we can address that issue and use Federal partnerships to 
help effectuate some change in that arena as well.
    Ms. Jackson Lee. Thank you. General Nessel, and the type of 
terrorists that you have seen, White militia, White racism, 
other kinds? Please, thank you. You are muted.
    Ms. Nessel. What we learned in our investigation in 
Michigan is that, you know, subjects who intend to commit 
politically-motivated violence don't always fit into neat 
little boxes. But we know that the motivation behind a 
radicalized person can be complicated and their world view 
doesn't always make sense. So, most of the extremists today 
that we see they often adhere to, you know, conspiracy-based 
theories that are both, you know, White supremacy in nature, 
right-wing extremist ideology agendas. While we have seen left-
wing, I guess, anarchists that sometimes join militias being 
Constitutionalists or libertarian values. More often than not 
what we see is that it is, again, it is race-based, White 
supremacy based, and right-wing based. That has just been our 
experience here in Michigan.
    Just very quickly, to follow on something I said earlier. 
Listen, I desperately want to make sure that we are protecting 
peaceful protestors that are members of Black Lives Matter. I 
need the tools to be able to protect Black lives. That is what 
is critical to me here in the State of Michigan.
    Chairwoman Slotkin. Thank you. OK, with that, I thank the 
witnesses for their valuable testimony and the Members for 
their questions. I ask unanimous consent that the statements I 
mentioned earlier be submitted to the record.
    The first is from attorney general of the District of 
Columbia, Karl Racine, the second from attorney general of 
Oregon, Ellen Rosenblum, and the third, the Manhattan district 
attorney, Cyrus Vance, Jr. Last, the statement from the 
president of the National District Attorneys Association, Nancy 
G. Parr.
    These statements will help shed light on the diverse threat 
landscape and inform us of existing tools used throughout the 
country to address domestic terrorism.
    [The information follows:]
 Letter From Karl A. Racine, Attorney General, Office of the Attorney 
            General, Government of the District of Columbia
                                    March 23, 2021.

    Dear Chairwoman Slotkin, Ranking Member Pfluger, and Members of the 
Subcommittee: The District of Columbia is not only the Nation's 
capital, but it is a vibrant and diverse city, it is the epicenter of 
political thought, a major center for art and a burgeoning foodie 
scene, it is the where Go-Go music was started and it is where Martin 
Luther King, Jr. shared his dreams. For me, it is the city I have 
called home since the age of 3 from Haiti. From young Capitol Hill 
staffers to newly-arrived immigrants, it is a city of promise. For 
many, it is a city where generations of family members have lived, 
worked, and played. They have walked these streets and lived the 
history that most of our country has only read about in textbooks. 
Currently over 700,000 residents call this city home and I am proud to 
serve as their attorney general.
    More recently, District residents have been confronted with hate in 
our streets. Like many other cities in the Nation, the District saw a 
sharp rise in hate crimes after 2015 that we are only now beginning to 
see level off. Perhaps more disturbing, is that the District has been 
impacted by ugly displays of hate and violent extremism brought here by 
outsiders who seek to force political change through violence.
    The horrific January 6, 2021 attack on the Capitol is the most 
obvious example. On that day, hate actors and hate groups engaged in 
acts of domestic terrorism. They interfered with the processes of our 
Government, attacked a building that serves as the symbol of our 
democracy, and the office where Nationally-elected leaders and District 
residents work. They also threatened the District. Many may not realize 
the heroic efforts of the Metropolitan Police Department to end that 
attack, and the direct impact that attack had on District resources. 
Just before that attack, in mid-December, outsiders also came to the 
District, and in an act of violent white supremacy, attacked 2 historic 
Black churches in downtown Washington.
    These incidents of hate impact District residents' feelings of 
safety, community, access to services, businesses, and their ability to 
live their daily lives. Indeed, we saw significant parts of our city 
shut down between the insurrection and inauguration as well as curfews 
to protect our safety, and we continue to see some of the fencing that 
makes it harder for District residents to get around their 
neighborhoods. These violent incidents have ripple effects throughout 
the city that extend far beyond the profound harms they inflict on the 
victims they target.
    We are a politically divided and polarized Nation; but at the end 
of the day we all desire many of the same things for ourselves, our 
families, and our communities. District residents are no different and 
are entitled to live their lives free from the terror of hate actors 
choosing violence as their main form of expression against the Federal 
Government. To move forward, we need to acknowledge the wrongs 
committed against the District and work to repair them. A critical 
first step in this process is holding perpetrators from these 2 violent 
incidents accountable. Only then can we begin to heal as a Nation and 
only then can District residents begin to heal from the trauma 
inflicted on them during those days.
    The ability of my office to represent the voices of over 700,000 
District residents, to protect them from hate, and to hold violent 
White Supremacists who commit illegal acts against District residents 
accountable, is hamstrung by our lack of Statehood. The absence of 
Statehood is itself a vestige of White Supremacy. It harkens back to 
1874 when the Congress, fearing Black political power, installed a 
Board of Commissioners to run the D.C. municipal government and 
stripped D.C. residents of their political power. This was made 
permanent with the Organic Act of 1878 when District residents lost the 
vote for nearly 100 years. In 1971 and 1973 progress was made with a 
non-voting House delegate and home rule, respectively; however, 
opposition to Statehood has represented a historical fear of the Black 
vote and Black political power. For decades, Members of Congress have 
chosen the institutionalized racism that non-Statehood represents over 
the democratic will of Washingtonians.
    In addition to issues of civil rights, the District's lack of 
Statehood results in tangible limitations to our ability to combat 
domestic terrorism and White Supremacy--including holding those who 
perpetrated the violent acts of January 6 accountable. Because D.C. is 
not a State, we do not have a local prosecutor who has the authority to 
prosecute local felonies. The District is the only jurisdiction in the 
country where the Federal Government prosecutes all adult felonies. 
This means that the Office of the Attorney General is limited to 
juvenile offenses and some adult misdemeanors. To be sure, we always 
work closely with Federal prosecutors on criminal justice matters in 
the District, but we have only the power of persuasion, not the power 
of prosecution.
    The incidents of January 6 exemplify this. My office is in on-going 
communication with the United States Attorneys' Office on these 
investigations and prosecutions. To that end, I have told the new 
Interim United States Attorney that my office is willing to provide 
whatever staffing and other resources they may need to thoroughly 
investigate and prosecute these offenses. Nevertheless, this means that 
we need to wait to bring any misdemeanor charges until after the United 
States Attorney's Office has had a chance to investigate and prosecute 
felonies so that we are ensuring that the most serious charges are 
brought without double jeopardy issues. To be clear, there are several 
misdemeanor charges that may be available here. This includes inciting 
violence--part of our disorderly conduct statute--and we will work to 
hold those who broke the law on January 6 accountable to the maximum 
extent consistent with the facts and the law. And we may also have 
civil claims against the groups that perpetrated the insurrection, but 
all of this falls short of local authority to charge those who engaged 
in serious wrongdoing with felonies.
    It is worth noting that the District has long been concerned about 
the intersection of extremism, hate, and lack of local control. In 
2019, after a spike in hate crimes, the Council for the District of 
Columbia and my office both noted the failure of the previous 
administration's U.S. Attorney to prosecute those who perpetrated these 
offenses. The Council held a hearing on October 23, 2019, where the 
then-U.S. Attorney did not even appear, demonstrating the previous 
Department of Justice's disregard for the voices of District residents. 
In light of the silence of the U.S. Attorney, we worked to draft 
legislation that would give our office authority to bring civil cases 
against those who perpetrate bias-motivated violent acts, which the 
Council subsequently passed but which became law only after the 
December 2020 attacks on our historically Black churches.
    I also wear another hat, that is president of the National 
Association of Attorneys General. As president, I have an opportunity 
to shine a spotlight on and convene my fellow Attorneys General around 
an issue of National importance, and I have chosen countering hate. My 
initiative, the People v. Hate: Standing Up for Humanity is focused on 
raising awareness of violent extremists and hate actors, like the ones 
who came to the District, but also on the legacy of hate, which is 
exemplified by the District's lack of Statehood. We will also seek 
opportunities to increase prevention and support to those communities 
who have been impacted by horrific acts of hate and its existence in 
the fabric of our institutions and policies.
    The entrenched systems of white supremacy disenfranchise the 
District's primarily Black and Brown residents while protecting those 
who commit acts of violent extremism. Congress must pass H.R. 51 as a 
significant step toward acknowledging past wrongs, repairing the damage 
of White Supremacy, and disentangling the institutionalization of White 
Supremacy from the lives of District residents. Only then, can the 
District fully protect and defend all of its residents and ensure that 
domestic terrorism has no home here.
            Sincerely yours,
                                            Karl A. Racine,
                     Attorney General for the District of Columbia.
                                 ______
                                 
        Statement of Ellen F. Rosenblum, Oregon Attorney General
                             March 24, 2021
    Chair Slotkin, Ranking Member Pfluger, and Members of the 
subcommittee, thank you for the invitation to submit written testimony 
on this matter of fundamental importance to our democracy. As you 
undoubtedly know, Oregon has been the site of significant unrest 
involving members of the Proud Boys, Patriot Prayer, III percenters, 
Boogaloo Bois, and similar groups. These encounters have become more 
violent. Since last May, approximately 110 riots have been declared by 
the police in Oregon.
    Last July, in Springfield, racial justice protesters were met with 
armed counter-protesters. The same thing happened in August, in Eugene, 
where some counter-protesters made Nazi salutes and a protester was 
assaulted in an incident captured on live-stream video.
    A Portland-area caravan demonstration in August included members of 
several of these groups. Participants used pepper spray, shot paintball 
guns and intentionally drove trucks into crowds. The following week, 
the same groups, armed with rifles, batons, and tear gas, rallied 
around the State capitol in Salem. Once again, violence ensued.
    Then, on December 21, the Oregon State Capitol was breached. 
Violent radicals damaged property, fought with police, and deployed 
pepper spray. Fortunately their incursion was relatively contained and 
no deaths resulted.
    But we all know what happened just a couple of weeks later. An 
insurrectionist mob subsequently invaded the U.S. Capitol, causing 
death and destruction. This was a brazen effort to subvert the 
transition of democratic power to the winner of the 2020 Presidential 
election. And many of the groups that have been active in Oregon appear 
to have played a key role in organizing and carrying out this attack.
    It is imperative that we respond effectively to these assaults. 
These groups are actively trying to stifle the first amendment rights 
of others, and to deprive us of our collective right to govern 
ourselves democratically. And what they cannot accomplish at the polls, 
they intend to accomplish through violence and intimidation.
    We cannot allow this. But for too long, law enforcement at all 
levels has either failed to see the extent of this problem, or else 
found reasons not to respond commensurately to the threat posed by 
groups like these. Indeed, the insurrection at the U.S. Capitol was 
successful even though the desire to interfere with the certification 
of the electoral vote was being loudly trumpeted, and even though 
Federal law enforcement agencies had acknowledged right-wing extremism 
as our country's most pressing domestic security threat.
    I am hopeful that the on-going FBI investigation into the events of 
January 6 means that Federal law enforcement has, albeit belatedly, 
realized that it must respond to this serious threat. I am confident 
that many States are similarly seeing the need to act.
    Fortunately, I believe that States have several under-utilized 
enforcement tools to dust off and evaluate. Legal scholars have noted 
that every State has laws on the books against unlawful paramilitary 
activity. Yet those laws have essentially lain dormant. In Oregon, for 
example, it appears the crime has never been charged. But surely these 
groups are engaging in at least some coordinated training efforts, an 
element of this crime.
    In addition, there are criminal laws that prohibit the use of force 
or intimidation to disrupt the administration of Government. But again, 
it is not clear that such crimes are being charged, even when groups 
are acting with express intent to impede institutions that they don't 
agree with. Prosecutorial decisions can be difficult, and familiar 
crimes like assault and trespass certainly should be prosecuted. But 
whenever possible, prosecutors should send a clear message that 
personal political views do not convey any license to violently impede 
our Government.
    The final example I will offer today is that organized criminal 
enterprises are prohibited at both Federal and State levels. Indeed, 
anti-racketeering statutes frequently provide civil remedies, as well 
as the potential for criminal prosecution. Although the direct 
motivation behind the violence committed by these organizations 
purports to be political, rather than economic, laws against organized 
crime may still prove to be useful tools.
    Although I am optimistic that States will be able to use existing 
laws against these organizations with some success, Congressional 
attention to this problem is vital. For one thing, the fact that State 
tools exist does not necessarily mean they will prove adequate to 
actually eliminate the problem of organized, politically-motivated 
extremist violence. Indeed, these groups clearly plan and organize 
across State lines, complicating State enforcement efforts and making 
them appropriate subjects of Federal enforcement. In addition, the 
events of January 6 make it obvious that our Federal Government is an 
important target--perhaps the most important target--for these groups. 
If Washington, DC lacks the will to hold them accountable, it will 
weaken efforts to hold them accountable in Oregon and other States. 
Federal leadership, Federal resources, and strong State-Federal 
partnerships will all be necessary as we move to protect our republic 
from extremist organizations.
    I believe the hearings in this committee today represent an 
important step toward preserving our Government against those who want 
to use violence and intimidation to subjugate democratic government to 
their own preferences. I thank you for beginning that work, and I thank 
you again for inviting me to testify. I look forward to continuing this 
conversation with the committee and its Members.
                                 ______
                                 
 Letter From Cyrus R. Vance, Jr., District Attorney, County of New York
                                    March 23, 2021.
The Honorable Elissa Slotkin,
Committee on Homeland Security, H2-176 Ford House Office Building, 
        Washington, DC 20515.
The Honorable August Pfluger,
Committee on Homeland Security, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairperson Slotkin & Ranking Member Pfluger: I submit this 
letter in support of your important efforts to combat domestic 
terrorism. I appreciate your understanding of the vital role State and 
local law enforcement play in combatting this ever-expanding threat to 
our Nation.
    As the District Attorney of New York County, I have witnessed 
first-hand the threat of domestic terrorism. Through our Counter 
Terrorism (CT) program which I formed in 2015, my office investigates, 
disrupts, and prosecutes domestic and international terror threats. The 
cases that my office has investigated and prosecuted illustrate the 
importance of State and local involvement in investigating and 
preventing domestic terror threats. For example, in 2019, my office 
prosecuted a White Supremacist named James Harris Jackson. Mr. Jackson 
sought to start a race war. He traveled to Manhattan to execute his 
plan. Mr. Jackson brutally murdered Timothy Caughman, a 66-year-old 
African American man, who was just walking on the street in the heart 
of New York City. The terrorist was sentenced to life in prison without 
the possibility of parole--the maximum sentence permitted under New 
York criminal law. More recently, we have worked with both our NYPD and 
JTTF partners on investigations and prosecutions related to ghost guns 
and ghost gun parts. Ghost guns are often found in the possession of 
individuals active in the domestic terror chat rooms on-line. Just a 
week ago our Office charged Samuel Fisher, an individual also charged 
in the assault on the U.S. Capitol, for local charges related to the 
possession of a loaded AR-15 assault rifle, a loaded pistol, a loaded 
shotgun, a bullet-proof vest, and over 1,000 rounds of ammunition.
    Our office recognizes that domestic terrorism also includes cyber-
based attacks. These cyber threats, especially those to our critical 
infrastructure, are incredibly concerning. Over the last several years, 
the number of cyber attacks impacting State and local communities has 
escalated. These cyber attacks are a threat to public safety and have 
caused significant disruption to sectors as diverse as health care, 
education, emergency services, and transportation, to name a few.
    The proliferation of significant cyber events has underscored the 
need for better coordination and response capabilities at the State and 
local level, both to thwart attacks and to limit their impact. The 
bottom line is there must be dramatically enhanced coordination across 
sectors that protect our communities' critical infrastructure and 
provide essential services. The Federal Government can assist State and 
local communities by financially supporting these communities' efforts 
at accomplishing 3 primary tasks: (1) Sharing of real-time threat 
information across sectors; (2) training across sectors; and (3) 
developing volunteer response teams to assist sector(s) in need.
    As to the sharing of real-time threat information, New York City 
and the State of Michigan provide 2 models of ensuring that indicators 
of compromise (IoCs) and other relevant cyber attack information are 
moved, without delay, across sectors. The New York City Cyber Critical 
Services and Infrastructure (NYC CCSI), for example, includes cyber 
professionals from 14 sectors who share such relevant data from their 
individual sector to their counterparts in other sectors. Those 
receiving this data can act upon it with dispatch to protect their 
individual entity.
    As to training across sectors, approximately twice a year NYC cyber 
professionals gather to develop and enhance the partnership's 
coordination skills--to conduct cyber emergency fire drills. The threat 
scenarios are not generic; rather, they are developed to closely 
emulate the most current cyber threat landscape facing New York City. 
As a result of the training, both the individual NYC CCSI participant 
and the city are better prepared for future attacks. Finally, as to 
developing cyber response capacity, trained NYC CCSI volunteers are 
prepared to respond to a given sector in crisis, usually following a 
crippling cyber attack. For example, in November 2020, NYC CCSI 
volunteers were called upon and dispatched to a hospital whose servers 
had been locked in a ransomware attack. The NYC CCSI volunteers 
assisted the hospital personnel with getting patient information back 
on-line and accessible to doctors, nurses, and other medical 
professionals.
    We respectfully request that Congress assist prosecutors and our 
law enforcement partners in this effort by dedicating funding and 
resources to strengthening technical assistance and training as we 
fight to end the spread of domestic terrorism. We are confident that 
directing additional resources and funding to combat domestic terrorism 
will strengthen relationships between Federal law enforcement and their 
State and local partners as we work together to stamp out domestic 
terror threats made to our country.
    We stand ready to assist you in any way as you move forward with 
consideration of Federal legislation to combat domestic terrorism.
            Sincerely,
                                        Cyrus R. Vance, Jr.
                                 ______
                                 
          Letter From National District Attorneys Association
                                    March 24, 2021.
The Honorable Elissa Slotkin,
Committee on Homeland Security, H2-176 Ford House Office Building, 
        Washington, DC, 20515.
The Honorable August Pfluger,
Committee on Homeland Security, H2-176 Ford House Office Building, 
        Washington, DC, 20515.
    Dear Chairwoman Slotkin & Ranking Member Pfluger: I am reaching out 
on behalf of the National District Attorneys Association (NDAA), the 
oldest and largest National organization representing State and local 
prosecutors in the country. With more than 5,000 members Nation-wide, 
NDAA is recognized as the leading source of National expertise on the 
prosecution function and is a valuable resource for the media, 
academia, Government, and community leaders. Today, I write in 
anticipation and support of your hearing on the State and Local 
Responses to Domestic Terrorism.
    As the Nation continues to confront the challenges of home-grown 
terrorism, State and local prosecutors continue to work with our 
Federal partners to hold bad actors accountable. In light of these 
recent tragedies, NDAA and its members have focused our efforts on 
improving training and resources to prepare the field to proactively 
root out domestic terrorism in our communities and combat the spread of 
misinformation. Congress can assist prosecutors and our law enforcement 
partners in this effort by dedicating funding and resources to 
strengthening technical assistant and training as we fight to end the 
spread of domestic terrorism.
    Often, State and local incidents that involve domestic terrorism 
are complex and involve multiple agencies responding to the scene. 
Additionally, States largely lack specific domestic terrorism statutes 
and must look to other criminal laws where elements are present in 
order to seek justice for victims. Given the complex nature of these 
investigations and subsequent prosecutions, additional resources are 
needed for State and local prosecutors to provide training and 
technical assistance on how to handle these cases when they occur, 
develop threat assessment models for their jurisdictions, and 
collaborate with Federal partners to hold perpetrators accountable.
    Based on these challenges, NDAA is encouraged to hear that Congress 
is considering addressing the issue of domestic terrorism through 
Federal legislation. Our Members agree that now is the time to act in 
response to this growing threat to our homeland and call on the 
committee to ensure any such proposal includes training, technical 
assistance, and increased resources to assist crime intelligence units. 
These units play a vital role in identifying threats at the State and 
local level and assisting collaboration between Federal, State, local, 
and Tribal partners to counteract potential threats to communities. We 
are confident that directing additional resources and funding to combat 
domestic terrorism will strengthen relationships between Federal law 
enforcement and their State and local partners as we work together to 
stamp out the domestic terror threat to our country.
    We thank you for your tireless efforts to address this on-going 
issue and look forward to working alongside you and your staff to 
combat the danger posed by domestic terrorism.
            Sincerely,
                                             Nancy G. Parr,
                                                    NDAA President.

    Chairwoman Slotkin. The Members of the subcommittee may 
have additional questions for the witnesses and we ask that you 
respond expeditiously in writing to those questions. Without 
objection, the committee record shall be kept open for 10 days. 
Hearing no further business, the subcommittee stands adjourned. 
Thank you to our witnesses.
    Have a great day everyone.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
